U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




     National Institute of
Standards and Technology


       South Carolina MEP
  Award No. 70NANB5H1187
                  Report No. ATL-18567
                            March 2009




  FOR PUBLIC RELEASE


                               Atlanta Regional Office
                             Report In Brief
                                           U.S. Department of Commerce Office of Inspector General
                                                                  March 2009



Why We Did this Review National Institute of Standards and Technology

The South Carolina Manufac-
turing Extension Partnership      South Carolina MEP
 

(SCMEP) received a NIST co-       Award No. 70NANB5H1187 (ATL-18567)
 

operative agreement in 2005
that, as amended, funded
                                  What We Found
operations of its MEP center
for 2 years (July 2005-June
2007). Total estimated costs of
                                  The South Carolina Manufacturing Extension Partnership claimed costs total-
the project were $13.6 million.
                                  ing $11.4 million for the period July 2005 through March 2007, and received
The federal share was capped
                                  federal reimbursements of $3.8 million. Our audit found that the recipient
at $4.5 million.
                                  could not properly support approximately $3.4 million in costs claimed by four
                                  of its subrecipients, largely for contract, matching share, and in-kind expenses
We audited SCMEP to de-
                                  incurred while operating MEP centers. Three subrecipients—Greenville
termine whether its claimed
                                  Technical College, South Carolina Export Consortium, and University of South
costs were allowable under
                                  Carolina—did not provide complete, verifiable documentation to support their
the terms of the agreement
                                  claims or program income (generated by fees, etc., charged to firms that use a
and whether the recipient
                                  center’s services). The fourth—Clemson University—claimed costs that were
had complied with all other
                                  largely outside the scope of the MEP project. We questioned the $3.4 million in
MEP operating guidelines,
                                  claimed costs.
award terms, and conditions.
We also examined the costs
                                  In addition, the subrecipients’ MEP agreements did not contain the required
submitted by four entities
                                  budget information, and none had written procedures in place to determine
(“subrecipients”) that received
                                  whether amounts reported to SCMEP were allowable under federal cost prin-
cooperative agreement fund-
                                  ciples.
ing from SCMEP to operate
centers.
                                  Finally, two of three subrecipients that qualified for single audits* did not
                                  separately identify the NIST MEP program. Therefore these grants were not
Background                        subjected to the proper audit techniques required under the Single Audit Act.

Congress established the          *The Single Audit Act requires nonfederal entities that expend federal awards from more than one agency
Manufacturing Extension           totaling $500,000 or more in a year to undergo a “single” audit, conducted by an independent auditor.
Program in 1988 to provide
manufacturers with technical
and business management as-
                                  What We Recommended
sistance aimed at improving
their profitability, productiv-   We recommended that NIST take the following actions:
ity, and global competitive-
ness.                                       1.	     Disallow $3,409,409 in questioned costs and recover the federal
                                                    portion of $1,136,736.
The South Carolina Manufac-
turing Extension Partnership                2.	     Require the recipient to ensure its subrecipients have appropri
was one of the original three                       ate budgets and written policies and procedures that meet finan
extension centers established                       cial system requirements prior to granting any future sub
under the program in 1989.                          awards. The written procedures should direct subrecipients to
Today there is at least one                         comply with the Single Audit Act.
center in every state and a to-
tal of 59 MEP centers located
across the country.
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




 MAR     6 2009


MEMORANDUM FOR:	              Laura Cesario
                              Chief, Grants and Agreements Management Division
                              National Institute of Standards and Technology


                             ~9·~

FROM:                         Judith J. Gordon
                              Assistant Inspector General
                               for Audit and Evaluation

SUBJECT:	                     Final Audit Report No. ATL-18567
                              South Carolina Manufacturing Extension Partnership
                              NIST Cooperative Agreement Number: 70NANB5H1187

We are attaching a copy of the subject audit report for your actions in accordance with DAO
213-5, "Audit Resolution and Follow-up." The original report has been sent to the recipient, who
has thirty (30) days from the date ofthe transmittal to submit comments and supporting
documentation to you. A copy of this report, along with the response, will be posted on the
OIG's website pursuant to section 8L of the Inspector General Act of 1978, as amended.

Under DAO 213-5, you have sixty (60) calendar days from the date of this memorandum to
reach a decision on the actions you propose to take on each audit finding and recommendation
and to submit an Audit Resolution Proposal to this office. The format for the proposal is
Exhibit 8 of the DAO. As applicable; your written proposal must include the rationale and/or
legal basis for reinstating any questioned cost in the report and should reference any supporting
documentation relied on. Your comments should also address the funds to be put to better use, if
any, cited in the audit report. Under the DAO, the Office of Inspector General must concur with
your proposal before it may be issued as a final determination and implemented. The DAO
prescribes procedures for handling any disagreements this office may have with the Audit
Resolution Proposal. Also, please copy us when the audit determination letter is sent to the
auditee.

Any information or inquiry regarding this final report should be directed to me at (202) 482-2754
or Katie McKevitt at (404) 730-2063. All correspondence concerning this report should refer to
our Final Audit Report No. ATL-18567.

Attachments
U. S. Department of Commerce                               Final Report No. ATL-18567
 

Office of Inspector General                                                March 2009 




                                     CONTENTS 


                                                                                   Page
 


INTRODUCTION…..……………………………………………………..…………………                                           1
 


FINDINGS AND RECOMMENDATIONS………………..………………………………                                       2
         


   $3,406,909 IN QUESTIONED SUBRECIPIENT COSTS……..…………...…………....                      2
 


   EXCESS PROGRAM INCOME……………..……………………………………….…..                                     7
 


   SUBRECIPIENTS LACKED REQUIRED BUDGETS 

   AND WRITTEN PROCEDURES……………………………………....…………...……                                   8
 


   AWARDS TO SUBRECIPIENTS WERE NOT 

   IDENTIFIED IN SINGLE AUDIT REPORTS……...……………………….….….….…                            8
 


   OTHER QUESTIONED COSTS…………………….………………………………..….                                     8
 


   GRANTEE RESPONSE…………………………………………………………………..                                         9
 


   OIG COMMENTS.…………………………….………………………………………….                                        10
 


   RECOMMENDATIONS………………………………….………………….………..….                                      13
      


SUMMARY RESULTS OF FINANCIAL AUDIT………………………………………...                                 14
 


APPENDIX A: Objectives, Scope, and Methodology 


APPENDIX B: Summary of Source and Application of Funds 


APPENDIX C: Summary of Financial/Compliance Audit 


APPENDIX D: Grantee Response 





                                          i
U. S. Department of Commerce                                           Final Report No. ATL-18567
 

Office of Inspector General                                                            March 2009 



                                      INTRODUCTION

In September 2005, the National Institute of Standards and Technology (NIST) awarded
Manufacturing Extension Partnership Cooperative Agreement No.70NANB5H1187 to the
South Carolina Manufacturing Extension Partnership to continue operating an existing MEP
center. The South Carolina Manufacturing Extension Partnership (SCMEP) was one of the
original three extension centers established in 1989 as part of the NIST Manufacturing Extension
Partnership (MEP) program.

The center operated for several years— through June 30, 2005— under prior NIST cooperative
agreements. In September 2005, NIST approved funding for SCMEP for the period July 1
through December 15, 2005. In subsequent amendments, NIST extended the award to June 30,
2007. Total estimated project cost for the period July 1, 2005, through June 30, 2007, was
$13,608,015, with the federal government’s share not to exceed $4,536,005, or a third of
allowable project costs.

During the period July 1, 2005, through March 31, 2007, SCMEP submitted financial reports to
NIST claiming total project costs of $11,406,434. Based on these claims, SCMEP received
federal reimbursements totaling $3,802,144.

In April 2007, we initiated an audit of SCMEP to determine whether the recipient complied with
the award terms and conditions and NIST operating guidelines for MEP centers. The audit
covered the 21-month period of July 1, 2005, through March 31, 2007. The primary objective of
our audit, as further explained in appendix A, was to determine whether South Carolina MEP
reported to NIST allowable costs in accordance with federal regulations and NIST policy. We
also examined cost claims of four SCMEP subrecipients: the University of South Carolina
Center for Manufacturing and Technology (USC), the Greenville Technical College Buck
Mickel Center (Greenville Tech), Clemson University Apparel Research (Clemson), and the
South Carolina Export Consortium (SC Export).




                                               1
 

U. S. Department of Commerce                                              Final Report No. ATL-18567
 

Office of Inspector General                                                               March 2009 



                          FINDINGS AND RECOMMENDATIONS

We questioned $3,409,409 of the $11,406,434 in costs claimed by South Carolina MEP.
Specifically, we questioned $3,406,909 in subrecipient costs and $2,500 claimed for an
employee bonus not allocable to the NIST/MEP project.

We examined financial records of four of SCMEP’s subrecipients and found that three of them,
the University of South Carolina – Center for Manufacturing and Technology (USC), Greenville
Technical College – Buck Mickel Center (Greenville Tech) and South Carolina Export
Consortium (SC Export) failed to meet the federal requirements for financial management
systems as spelled out in 15 CFR Section 14.21. These three subrecipients did not provide
complete verifiable documentation to support actual costs incurred or program income earned
under the SCMEP subawards. USC did not identify either specific projects for costs claimed or
the program income related to the same projects. Greenville Tech prepared an after-the-fact
accounting analysis but we were unable to verify it against the official college accounting
records. SC Export reported expenditures that were not assigned to the MEP program in its
accounting system and failed to identify the remaining expenditures with any specific project
related to MEP. Clemson reported incurred costs outside the scope of the NIST award in nearly
all instances. We also found that SC Export did not incur sufficient expenses to meet matching
share requirements and did not obtain the required NIST advance approval for foreign travel
expenses. In addition, we found procedural problems at all four subrecipients. None of the four
had appropriate budgets or written policies and procedures in place.

Finally, we found the parent entities for three of the subrecipients had obtained required single
audit reports, but two of the three failed to list the MEP subawards on the Schedule of
Expenditures of Federal Awards (SEFA). Consequently, two of the three MEP subawards were
not subjected to the required specific auditing techniques of the single audit process.

$3,406,909 IN QUESTIONED SUBRECIPIENT COSTS

SCMEP’s claimed subrecipient costs totaled $3,469,409 in three categories: (1) $485,516 in the
contractual cost category; (2) $2,816,349 was claimed as partner match; and, (3) $167,544 was
claimed as in-kind.

We questioned $3,406,909 of the $3,469,409 SCMEP claimed for subrecipient costs.
Specifically, we questioned costs in three categories: (1) $ 423,016 in the contractual cost
category; (2) $2,816,349 in partner match; and, (3) $167,544 in the in-kind category.
(See table 1.) We accepted $62,500 of costs claimed.

        Table 1. Subrecipient Costs Claimed by SCMEP
                                 Costs            Costs                     Costs
             Category
                                Claimed         Questioned                 Accepted
         Contractual             $ 485,516         $ 423,016                   $62,500
         Partner Match             2,816,349        2,816,349                        0
         In-Kind                     167,544          167,544                        0
                     Total       $3,469,409        $3,406,909                  $62,500

                                                 2
 

U. S. Department of Commerce                                            Final Report No. ATL-18567
 

Office of Inspector General                                                             March 2009 



Contractual Cost Category

We are questioning $423,016 of the $485,516 SCMEP claimed as subrecipient award amounts
under the contractual cost category. We accepted only $62,500 of cost claimed for subawards to
Midland and Trident colleges. We decided not to test these two subrecipients because of their
relatively small size. (See table 2).

      Table 2. Subrecipient Award Costs Claimed as Contractual Cost
                                 Amount          Amount         Amount
            Subrecipient
                                 Claimed       Questioned       Accepted
       Greenville Technical        $113,016         $ 113,016    $       0
       College
       Clemson University           120,000           120,000            0
       SC Export Consortium         190,000           190,000            0
       Midland College               37,500                 0       37,500
       Trident College               25,000                 0       25,000
                         Total     $485,516         $423,016       $62,500

We questioned all Greenville Tech and SC Export expenses because the financial management
systems did not meet federal requirements. We also questioned all Clemson expenses because
the work performed was predominately outside the scope of the award. SCMEP did not claim an
amount in the contractual cost category for the award to USC.

Partner Match Category

We questioned the entire $2,816,349 South Carolina MEP claimed for subrecipient project costs
in the partner match cost category for the period July 1, 2005, through March 31, 2007. SCMEP
did not break down costs claimed for each subrecipient. The claimed amount, $2,816,349, is
comprised of various items, including carryover amounts from prior periods and adjustments not
specific to particular subrecipients. This prevented us from questioning costs for each
subrecipient. Therefore, we modified our audit approach. We calculated the total eligible
subrecipient project costs individually and in total and then compared the total to the amount
SCMEP claimed to NIST.

SCMEP payments to the subrecipients determined how much of each subrecipient’s cost SCMEP
could claim. If payments to a subrecipient were less than the amount awarded, we based required
matching share and total project expenditures on the amount of actual payments.

In-Kind Category

We questioned the entire $167,544 SCMEP claimed under the in-kind category. SCMEP
adequately supported only $17,940 (for Clemson) of the $167,544. However, since we
questioned all of Clemson’s costs as out-of-scope (see page 5), that includes the $17,940. Neither
SCMEP nor the subsidiaries supported the remaining $149,604 of the in-kind claim.




                                                3

U. S. Department of Commerce                                                Final Report No. ATL-18567
 

Office of Inspector General                                                                 March 2009 



The Subrecipients:

1. USC

The accounting system at USC did not meet financial system requirements for a federally funded
project. The director of operations for USC’s Center for Manufacturing and Technology told us
the center exists only for SCMEP projects. The center identified expenditures related to its
operations but did not connect the expenditures to specific projects related to the subaward and
did not identify related program income. To determine whether the subrecipient met the cost
requirements of the subrecipient agreement, all appropriate project costs must be identified.
Without complete accounting and program income information, we could not accept any costs
for the USC center.

NIST operating plan guidelines for MEP centers, issued in March 2005, require all MEP
subawards to include the applicable administrative requirements and all general and special
award conditions imposed on the recipient. Minimum requirements for recipient and subrecipient
accounting systems, as established in 15 CFR, Sec. 14.21, include:

         • 	 accurate, current, and complete disclosure of the financial results of each federally
             sponsored project or program (Sec. 14.21(b)(1)),

         • 	 comparison of outlays with budget amounts for each award (Sec 14.21(b)(4)), and

         • 	 written procedures for determining the reasonableness, allocability, and allowability
             of costs in accordance with applicable cost principles and the terms and conditions of
             the award (Sec. 14.21(b)(6)).

USC should be able to identify its expenditures by project and determine the project-related
program income. Since USC charges fees to seminar participants and consulting clients that
likely exceed service costs, there could be excess program income. Excess program income
would reduce expenses that could otherwise be claimed against the subaward.

If the accounting system issue is subsequently resolved, a secondary issue will involve $16,887
in excess fringe benefit cost claimed. For the nine months ended March 31, 2007, fringe benefit
cost was claimed at an arbitrary rate of 28 percent. This resulted in a cost claim of $50,530,
including indirect cost, compared with $33,643 in actual fringe amount, including indirect cost,
shown in the financial record of the USC Management Monthly report. The difference, an excess
of $16,887, was included in the amount claimed against the subaward by USC.

2. Greenville Tech

Greenville Tech claims project expenditures by simply designating a portion of its normal and
ongoing operating expenses as costs of the SCMEP subaward. There is no separately defined
project that is developed and conducted as a result of the SCMEP subaward. Greenville Tech
reported a portion of its annual operating expenses to SCMEP as allowable costs under the
subaward. But Greenville Tech’s accounting system did not provide a verifiable accounting
record for the MEP award and did not meet the 15 CFR, Sec.14.21 requirements for a financial

                                                  4
 

U. S. Department of Commerce          Final Report No. ATL-18567
 

Office of Inspector General                           March 2009 


system.




                               5
 

U. S. Department of Commerce                                                         Final Report No. ATL-18567
 

Office of Inspector General                                                                          March 2009 



Greenville Tech personnel prepared an after-the-fact spreadsheet listing costs and program
income for the courses and consulting engagements related to costs claimed on the SCMEP
subawards for the six-months ended December 31, 2006. The spreadsheet contained a list of
instructor fees, materials, and total amount billed for each course. Greenville Tech managers told
us spreadsheet amounts should equal the college’s BMC Monthly Report for external instructors
but for internal instructors only close estimates were available. We tested 71 items from the
spreadsheet and found 22 missing from the monthly report and 11 with a different date. The
spreadsheet of actual expenses and program income should be verifiable to the official
accounting records of Greenville Tech to validate the spreadsheet. Greenville Tech did not
provide us with a verifiable accounting of project expenses and revenues. Without a complete
and verifiable accounting for costs and program income, we were unable to accept any costs
claimed for Greenville Tech.

If the accounting system issue is ultimately resolved, a secondary issue for Greenville Tech will
be a $7,319 charge for office furniture claimed as property and equipment. The invoice presented
us did not agree with the amount claimed and Greenville Tech did not provide a basis for
charging the MEP project.

Greenville Tech should be able to provide complete and verifiable accounting information and
determine program income related to the projects that benefited from award expenditures. Since
it charges fees to course participants and consulting clients that exceed the costs of services,
excess program income will likely become an issue, because it would reduce expenses that could
be claimed against the subaward.

3. Clemson

Projects outside South Carolina make up the majority of Clemson’s MEP work, with little direct
benefit to South Carolina manufacturers. We examined $45,000 in invoices and found less than
3 percent were for South Carolina projects. We found a major cost category, The Marine Shop,
accounts for work performed entirely for the U.S. Marine Corps base in Quantico, Virginia.
Another major category, Miscellaneous Industrial Projects, supports projects in North Carolina,
Ohio, and Georgia. We do not believe Clemson Apparel Research projects are consistent with
the purpose of the award to SCMEP. 1

The award’s General Terms and Conditions, Item 6: Statement of Work, provides that the tasks
to be performed by the recipient under this award are detailed in the original proposal as
amended by the required operating plans. In turn, the SCMEP Operating Plans for the years
ended June 30, 2006, and June 30, 2007, provided the purpose and nature of the cost share for
Clemson. Specifically, it was to provide assistance to manufacturers within the Upstate Region
of the State of South Carolina. In addition, SCMEP’s Subrecipient Agreements with Clemson for
these two years each contain an identical statement of work. The opening sentences in each say:




1
 We conducted tests with a judgmental sample of items which cannot be projected to the entire universe. We did not
attempt to test items for the entire audit period but based our position on our sample tests and conversations with
Clemson and SCMEP officials.
                                                        6

U. S. Department of Commerce                                              Final Report No. ATL-18567
 

Office of Inspector General                                                               March 2009 



       “The mission of the South Carolina Manufacturing Extension Partnership
       (SCMEP) is to strengthen the global competitiveness of South Carolina small to
       mid-sized manufacturers.”

The Clemson projects underlying the cost claimed to NIST were outside the stated purpose of the
award except for minor instances, and we did not accept any cost related to the Clemson
subaward.

If the scope issue is subsequently resolved as appropriate under the MEP program, a secondary
issue will be excess program income. According to its Director, the Clemson Apparel Research
unit is not funded by Clemson University. Therefore, it charged fees to consulting clients which
exceeded the cost of services. 15 CFR Sec.14.24 states program income can be used to meet
required matching expenses with any remaining amount being designated as excess program
income. Any excess program income would then reduce the otherwise allowable project
expenses.

An additional secondary issue would be that maximum project expenditures eligible to be
claimed should not exceed an amount based on actual payments from SCMEP to Clemson.
Total project expenditures, per Clemson’s accounting records, was $682,765 and exceeded the
maximum allowable amount of $360,000 based on $120,000 in payments from SCMEP and the
resulting $240,000 in matching share.

4. SC Export

SC Export did not fully expend its award payments from SCMEP or meet its matching share
requirement. SC Export received payments for the entire subaward from SCMEP totaling
$295,000. This required a match of $395,000 for a total project expenditure requirement of
$690,000. SC Export reported total project expenditures, including matching share, of only
$258,703 to SCMEP. We were unable to accept any of the $258,703 in reported expenses. We
found that SC Export (1) reported expenditures of $128,705, for the six months ended December
31, 2005, that were not assigned to the MEP program in its accounting system, and (2) failed to
connect the remaining $129,998 in reported expenditures with any specific project related to
MEP.

We also found that the $258,703 included $2,049 in foreign travel for which NIST had not
provided the required prior approval. In the event that the other cost issues are subsequently
resolved by NIST, the foreign travel would become a secondary issue. We did not attempt to
identify all foreign travel for the audit period. However, if NIST does not allow the foreign travel
costs, NIST should require SC Export to identify all foreign travel for the entire audit period and
disallow all unapproved cost.

OMB Circular A-122 Attachment B, Paragraph 55.e, states:

       “Direct charges for foreign travel costs are allowable only when the travel has
       received prior approval of the awarding agency. Each separate foreign trip must
       be approved.”


                                                 7

U. S. Department of Commerce                                            Final Report No. ATL-18567
 

Office of Inspector General                                                             March 2009 



SC Export identified total program income of only $19,000. The ultimate disposition of the
program income depends on the final resolution of the cost items. However, it is unlikely there
would be any excess program income.

EXCESS PROGRAM INCOME

According to 15 CFR, Sec. 14.2 (aa), program income is revenue generated by a financial
assistance recipient as a result of performing work under its award. Two common sources of
program income in MEP centers include tuition or other fees paid by manufacturers who attend
training classes sponsored by the center, and fees paid by manufacturers for services provided by
MEP staff or contractors.

The award to SCMEP allows it to use program income to fund the nonfederal share of project
costs. 15 CFR, Sec.14.24 (c) requires amounts “in excess of any limits stipulated” to be deducted
from total allowable project costs in computing the amount of federal funds for the recipient. In
the award to SCMEP, the same requirements flow down to subrecipients. Excess program
income could reduce the amount of cost that can be claimed against subawards. Subrecipient
costs and program income must be connected—the same projects claimed as costs must be the
projects that generate program income.

We cannot determine program income for USC or Greenville Tech until they provide verifiable
documentation of costs and income. Neither properly accounted for or reported program income
to SCMEP; therefore, we could not determine excess program income.

A determination of program income and excess program income will have to be made at
Clemson if the issue of scope of work is subsequently resolved.

SC Export had only $19,000 of total program income and even if its cost issues are resolved it is
unlikely to have excess program income.

SCMEP reported to NIST program income of $4,687,067, excluding subrecipients. This is less
than the matching share requirement of $5,331,350 based on our total accepted costs of
$7,997,025 (see Appendix C).




                                                8
 

U. S. Department of Commerce                                            Final Report No. ATL-18567
 

Office of Inspector General                                                             March 2009 



SUBRECIPIENTS LACKED REQUIRED BUDGETS AND WRITTEN PROCEDURES

Although 15 CFR Sec 14.21 (b) (4) requires both a budget and a comparison of outlays with
budget amounts, only two of the signed agreements contained budgets. Clemson’s agreement for
the year ended June 30, 2006, included a budget only for the direct portion of the award,
$90,000. Likewise, USC’s agreement for the year ended June 30, 2006, also included a budget
only for the direct portion of the award, $275,000. Neither the Clemson nor USC budget
included matching share amounts. None of the other subrecipients’ signed agreements contained
any subaward budget based on estimated costs that could be compared to actual outlays. 15 CFR
14.21 (b) (4) requires subrecipients to have a comparison of project expenditures with budget
and written procedures to determine the allowability of subaward charges.

None of the four subrecipients we tested had written procedures in place to determine whether
amounts reported to SCMEP met allowability requirements established by applicable federal cost
principles. All subrecipients should have had written procedures for expenses and program
income related to the MEP award, as required by 15 CFR Sec. 14.21 (b) (6). Written procedures
should also require subrecipients to ensure they meet the requirements of the Single Audit Act.

AWARDS TO SUBRECIPIENTS WERE NOT IDENTIFIED
IN SINGLE AUDIT REPORTS

Single audit reports were required by OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations, for three of the four subrecipients we tested. Only
one of three MEP programs of subrecipients required to be listed—Greenville Tech—was
actually shown on the Schedule of Expenditures of Federal Awards of the parent organization’s
single audit report for the year ended June 30, 2006. Therefore, two of the three NIST-MEP
related subawards were not subjected to the required specific auditing techniques of the single
audit process. The Single Audit Act Amendments of 1996 established uniform requirements for
state, local, and tribal governments and nonprofit organizations receiving federal assistance.
Under the act, nonfederal entities that expend $500,000 or more in a year in federal awards from
more than one agency must be subject to a “single” audit, conducted by an independent auditor,
and the resulting audit report must be submitted to the Federal Audit Clearinghouse.

OTHER QUESTIONED COSTS

In June 2006, SCMEP paid a $ 2,500 bonus to an employee who worked for the Women’s
Business Center from January to October 2006. The Women’s Business Center is not an MEP
cost center. According to OMB Circular A-122, Attachment A, Section A(4)(a)(1), a cost is
allocable to a grant if it is incurred specifically for the award.




                                               9
 

U. S. Department of Commerce                                               Final Report No. ATL-18567
 

Office of Inspector General                                                                March 2009 



GRANTEE RESPONSE

The grantee’s complete response is included, without exhibits, as Appendix D. A brief summary
of the primary points made in the grantee’s response and our comments follows:

The grantee’s response sets forth three main bases for rejecting the findings contained in the
draft report. First, the grantee states an August 2007 amendment of the MEP statute by the
America COMPETES Act, P.L. 110-69, clearly and unambiguously places the responsibility for
determining the reasonableness and allocability of contributions on the MEP centers. The grantee
contends that this change constitutes a clarification of the MEP statute which should be applied
retroactively to the audit period (which predated the enactment of the statute), as it does not
impose a new penalty, a new liability or create a new right of action. Although the grantee does
not say so directly, if the grantee’s interpretation of the change is applied retroactively, the MEP
centers, not the OIG or NIST, would be allowed to make final determinations on the
reasonableness and allocability of program costs.

The grantee also rejects the draft report’s finding that the four entities named in the report with
whom it partnered were subrecipients and therefore subject to the flow-down provisions of
15 C.F.R. §14.5 (which include the requirement to maintain a financial management system
consistent with 15 C.F.R. §14.21, to report program income pursuant to 15 C.F.R. §14.24, and to
comply with the Single Audit Act as appropriate). According to the grantee, the statute which
established the MEP program authorized the various MEP centers to establish relationships with
partners as a way of expanding services to small and medium-sized businesses, and partners are
not required to be subrecipients. Further, the grantee states that the four partners discussed in the
draft report cannot be subrecipients, as defined in 15 C.F.R. §14.2, as they have received no
federal funds or property. According to the grantee, given the MEP program’s national context,
a partner may have the characteristics of a subrecipient, a contractor/vendor, or a third party
in-kind contributor at various points in time.

With regard to the costs questioned as a result of noncompliant financial management systems,
the grantee contends that in this case its partners should be treated as in-kind contributors, who
are required to comply with 15 C.F.R. § 14.23 instead of 15 C.F.R. §14.21, and that in fact all the
partners actually did meet those standards. The grantee concludes this discussion by noting that
although they are not required to do so, the partners’ actually do comply with 15 C.F.R. §14.21
because they: 1) maintain accurate, current and complete disclosures of the financial results of
each project, 2) compare outlays/expenditures with budget amounts from within their accounting
systems and as reported quarterly to SCMEP, and 3) have SCMEP written procedures for
determining the reasonableness, allocability and allowability of the costs under the applicable
cost principles of the award.

Finally, the grantee rejects the draft report’s questioning of contributions based on work
performed for businesses outside the state of South Carolina as being outside the scope of the
project. According to the grantee, the MEP program is a national program and as such there is no
limit to the geographic service area under its awards. It further contends that projects undertaken
by its partners outside the state of South Carolina benefit South Carolina manufacturers because
they could be used in learning and demonstration of technologies for South Carolina companies
and because components from South Carolina manufacturers could be used in out-of-state
                                                 10

U. S. Department of Commerce                                              Final Report No. ATL-18567
 

Office of Inspector General                                                               March 2009 


projects.

In its response, the grantee also stated that the basis for the questioned cost categories and the
numeric values contained in the draft report is unclear and that it cannot ascertain the sources for
these amounts. In addition, the grantee commented that our modified approach for the
$2,816,349 questioned under the partner match category is problematic in that it limits the
allowable costs under the project by imposing cost share restrictions on each individual partner
based on amount of funds received as a whole. The grantee states that this approach precludes
SCMEP from counting costs that are otherwise eligible under cost principles and regulations.
Finally, the grantee also expressed disagreement with the disallowance of a $2,500 bonus for an
employee but did not provide any specific information as to why it disagreed with that action.

OIG COMMENTS

The grantee provided no information in its response that led us to change any of the findings and
recommendations contained in the draft report. Our responses to the main issues raised by the
grantee follow.

We found that the grantee’s belief that a change to the MEP statute resulting from the America
COMPETES Act clearly places authority for determining the reasonableness and allocability of
contributions on the centers is not supported by a straightforward textual analysis of the
amendment in question. The critical sentence of the relevant change reads as follows:

       All non-Federal costs, contributed by such entities and determined by a Center as
       programmatically reasonable and allocable under MEP program procedures are
       includable as a portion of the Center’s contribution. 15 U.S.C. §278k(c)(3)(C).

There is no question that this provision authorizes Centers to make determinations as to the
reasonableness and allocability of contributions they receive. That those determinations are not
final is evidenced by use of the permissive word “includable”, as opposed to mandatory language
such as “shall be included” or “must be included.” Such determinations must also be made
pursuant to MEP program procedures—a critical requirement that the grantee omitted when
quoting this provision of the Act in its response to the draft report. MEP program procedures
explicitly call for the Centers to make a determination of what costs to claim and not what costs
to allow, state that the cost principles apply and provide for program review of a recipient’s
claimed costs, with authority to make final determinations of reasonableness and allowability
resting with the program. In light of the foregoing, the only reasonable construction of this
sentence is that it recognizes that Centers make initial determinations about contributed costs that
can be claimed by a Center, but that those determinations, pursuant to MEP program procedures,
are subject to review by the program and do not mean that the costs must be allowed by the MEP
program. Nothing in this language or any other provision of the Act gives the Centers authority
to make final and unreviewable determinations of the reasonableness or allocability of costs
contributed by third-parties with which Centers partner.




                                                 11
 

U. S. Department of Commerce                                              Final Report No. ATL-18567
 

Office of Inspector General                                                               March 2009 



Because the relevant change to the MEP statute clarifies Congressional intent without materially
altering the rights and obligations of grantees, the change can be retroactively applied. It should
be noted that had the interpretation posited by the grantee been correct, then under well
established principles of law it would not be eligible for retroactive application, as it would
constitute a significant change in law and would materially alter grantees’ rights and obligations
under the program.

The grantee’s conclusion that its partners are not subrecipients is undermined by its own actions.
In its response the grantee acknowledged that at NIST’s direction it entered into subrecipient
agreements with the entities it now seeks to characterize as partners, third party in-kind
contributors, contractors and/or vendors. Those agreements were approved by NIST, contained a
description of subrecipient responsibilities, and were signed by the partners as subrecipients. The
subrecipient designation is used throughout the agreements with these entities and in SCMEP’s
annual operating plans for the years ending June 30, 2006, and June 30, 2007, respectively.
SCMEP has not provided evidence of any subsequent action by the grants officer to approve
relationships with these partners as third-party in-kind contributors, rather than as subrecipients.
Also, we do not see how subrecipients that receive project funds from SCMEP and do not
identify expenditures above and beyond their normal operations as incurred for the NIST-MEP
project can be considered to be contributors. The mere fact that the partners failed to uphold their
responsibilities as subrecipients does not mean that they should not be treated as such.

With regard to the grantee’s statement that its partners received no federal funds, the grantee
received an appropriation from the state of South Carolina and funding from the NIST-MEP
program. Using those combined funds, the grantee made subawards, described as being part of
the NIST-MEP program, to the subrecipients. The total expenditures by the subrecipients were
subsequently claimed as project costs by SCMEP, thereby resulting in the receipt of federal
funds by the grantee.

Insofar as the grantee’s contention that its partners complied with both 15 C.F.R. §14.21 and
15 C.F.R. §14.23 is concerned, it does not appear that the grantee met the requirements of either
section. Throughout the draft report we described areas where the grantee failed to meet the
requirements of §14.21, and none of the evidence presented by the grantee led us to change our
conclusions on this point. Regarding §14.23, even if SCMEP’s contention that at some points its
partners were third-party in-kind contributors was valid, it does not appear that any related cost
claims would be allowable. 15 C.F.R. § 14.23 requires, among other things, third party in-kind
contributions to be verifiable from the recipient’s records, shown as necessary and reasonable for
accomplishment of the project or program objectives, allowable under the applicable cost
principles, and adequately provided for in the approved budget. Our findings throughout this
report show that the grantee did not meet these requirements. Also, the grantee discusses, at
some length, comparison of actual outlays with budgeted amounts for each subrecipient.
However, as we discuss on page 8 of the report, there was no complete project budget provided
us for any of the subrecipient awards. As a result, there was no basis for comparing actual
expenditures with budgeted amounts.




                                                12
 

U. S. Department of Commerce                                             Final Report No. ATL-18567
 

Office of Inspector General                                                              March 2009 



The grantee stated that the SCMEP partners received only state funds, and were therefore not
required to participate in the single audit process with respect to the MEP award. Because they
received NIST SCMEP project funds, which included money from both federal and state
sources, the three subsidiaries were subject to including the MEP award in their single audits.
We note that one of the three subrecipients, Greenville Tech, included the MEP award in its
single audit. The remaining two subrecipients, USC and Clemson, did not include the awards in
their respective single audits.

The grantee’s contention that the MEP program’s national scope means that awards made under
the program have no geographic limitations is not supported by the documents associated with
this award. As the audit report points out on pages 5 and 6, the subrecipient award says
specifically that the award is to strengthen the global competitiveness of South Carolina small to
mid-sized manufacturers. In addition, the pertinent SCMEP Operating Plans are even more
restrictive, providing that the purpose of the award to Clemson is to provide assistance to
manufacturers within the Upstate Region of South Carolina.

With regard to the concerns raised by the grantee about the cost categories and associated
numeric values contained in the draft report, it should be noted that the grantee provided us the
very cost categories and numeric values it now claims it has trouble understanding.
The grantee provided us a spreadsheet accumulating, by cost category, the amount of costs
claimed to NIST over the 21-month audit period. This spreadsheet agrees with the form 269s that
SCMEP filed with NIST. These costs are listed in our draft report, APPENDIX C page 1.

Finally, with regard to the $2,500 employee bonus, we continue to question this amount because
although the grantee disagreed with the disallowance of this cost, it provided no information to
indicate that it should be allowed.




                                                13
 

U. S. Department of Commerce                                           Final Report No. ATL-18567
 

Office of Inspector General                                                            March 2009 



RECOMMENDATIONS

We recommend the Chief, NIST Grants and Agreements Management Division:

       1. disallow $3,409,409 in questioned costs and recover $1,136,736 in excess federal
          funds, and

       2. require the recipient to ensure that the subrecipients have appropriate budgets and
          written policies and procedures that meet financial system requirements prior to
          granting any future subawards. The written procedures should require subrecipients to
          meet the requirements of the Single Audit Act.




                                              14
 

U. S. Department of Commerce                                             Final Report No. ATL-18567
 

Office of Inspector General                                                              March 2009 



                       SUMMARY RESULTS OF FINANCIAL AUDIT

The results of our interim cost audit for the period July 1, 2005, through March 31, 2007,
which are detailed in Appendix C, are summarized as follows:

           Federal Funds Disbursed                                  $3,802,144
           Costs Incurred                       $11,406,434
           Less Questioned Costs                  3,409,409
           Costs Accepted                         7,997,025
           Federal Cost Sharing Ratio              X 33.33%
           Federal Funds Earned                                       2,665,408

           Refund Due the Government                                $1,136,736




___________________________________________
Judith J. Gordon                       Date
Assistant Inspector General
 for Audit and Evaluation




                                               15
 

U. S. Department of Commerce                                              Final Report No. ATL-18567
 

Office of Inspector General                                                               March 2009 



              APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY 


The primary objective of our audit was to determine whether South Carolina MEP reported costs
to NIST, including costs incurred by subrecipients that were reasonable, allocable, and allowable
in accordance with applicable federal cost principles, cooperative agreement terms and
conditions, and NIST policy, including MEP Operating Plan Guidelines. To achieve our
objectives, we interviewed South Carolina MEP and NIST Grants Office officials, reviewed
NIST award documents, and examined financial records of South Carolina MEP. We also
interviewed officials and examined financial records of four South Carolina MEP subrecipients.

Our audit scope included a review of costs claimed by South Carolina MEP during the audit
period of July 1, 2005, through March 31, 2007. Our audit objectives included determining the
grantee’s progress compared with operating plan performance goals. We reviewed the NIST
October 2006 annual assessment of the grantee’s progress that stated SCMEP was doing an
outstanding job. We did not independently evaluate South Carolina MEP’s performance under
the award. Additional questioned costs could result from subsequent performance audits. We
determined the validity and reliability of computer-processed data by direct tests of the data to
supporting documentation.

Our audit included an assessment of the MEP’s internal controls applicable to the award to
evaluate the effectiveness of the control and accountability systems. We reviewed South
Carolina MEP’s most recent single audit reports for the year ended December 31, 2005, and the
six-months ended June 30, 2006, respectively. An independent certified public accounting firm
conducted the audits in accordance with Office of Management and Budget Circular A-133. The
report for June 30, 2006, disclosed material internal control weaknesses but stated that South
Carolina MEP had implemented policies and procedures and developed plans to address the
weaknesses. We did not rely upon the accounting firm’s internal control reviews but instead
determined that we could better meet our audit objectives through testing of transactions. We
also determined that only one of three eligible subrecipients of South Carolina MEP was listed in
the parent organization’s single audit reports as required.

We reviewed compliance with laws and regulations as they applied to costs incurred, using as
criteria Office of Management and Budget Circular A-21 Cost Principles for Educational
Institutions, Circular A-122, Cost Principles for Nonprofit Organizations, Circular A-133 Audits
of States, Local Governments, and Non-Profit Organizations, and 15 CFR, Part 14, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, Other Non-Profit, and Commercial Organizations. We also assessed compliance with
the Department of Commerce Financial Assistance Standard Terms and Conditions, MEP
General Terms and Conditions, and the cooperative agreement Special Award Conditions.
Instances of noncompliance with the above stated laws and regulations are noted in this audit
report.




                                               A-1 

U. S. Department of Commerce                                             Final Report No. ATL-18567
 

Office of Inspector General                                                              March 2009 



This audit was conducted under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted our fieldwork during April and May 2007 at South
Carolina MEP’s headquarters in Columbia, South Carolina, and at subrecipient offices in
Clemson, Columbia, and Greenville, South Carolina.




                                               A-2 

U. S. Department of Commerce                                                        Final Report No. ATL-18567
 

Office of Inspector General                                                                         March 2009 



        APPENDIX B: SUMMARY OF SOURCE AND APPLICATION OF FUNDS
 


                              SOUTH CAROLINA MEP 

                NIST COOPERATIVE AGREEMENT NO.70NANB5H1187 

                      JULY 1, 2005 THROUGH MARCH 31, 2007 


                                                                           Approved             Receipts &
                                                                           Budget (1)           Expenses

SOURCE OF FUNDS:

Federal                                                                    $ 4,536,005          $ 3,802,144
Non-Federal                                                                  9,072,010            7,604,290
Total                                                                      $13,608,015          $11,406,434


APPLICATION OF FUNDS:

Personnel                                                                  $ 3,343,000          $ 2,786,603
Fringe Benefits                                                                900,042              725,254
Contractual                                                                  5,068,760            4,049,575
Other                                                                          679,597              638,147
Supplies                                                                       150,000               55,368
Travel                                                                         400,000              167,594
Equipment                                                                      170,000                    0
Partner Match (2)                                                            2,047,994            2,816,349
In-Kind                                                                              0              167,544
Indirect Costs                                                                 848,622                    0

Total                                                                      $13,608,015          $11,406,434


            1. The approved budget amounts are for the 2 years ended June 30, 2007. The receipts and
            expenditures are the actual amounts for the period of our audit, July 1, 2005 - March 31, 2007.

            2. Partner Match in the amount of $2,047,994 for the 2 years ended June 30, 2007, was contained in
            the “Other” category in the original award budget.




                                                     B-1 

U. S. Department of Commerce                                                       Final Report No. ATL-18567
 

Office of Inspector General                                                                        March 2009 



           APPENDIX C: SUMMARY OF FINANCIAL/COMPLIANCE AUDIT

                                SOUTH CAROLINA MEP 

                  NIST COOPERATIVE AGREEMENT NO. 70NANB5H1187 

                        JULY 1, 2005 THROUGH MARCH 31, 2007


                                                                              Results of Audit __________
                        Approved             Costs             Costs                 Costs          Costs
Description             Budget (1)          Claimed          Questioned          Unsupported       Accepted

Personnel               $3,343,000         $2,786,603         $  2,500(a)                   0         $2,784,103
Fringe Benefits            900,042            725,254                 0                     0            725,254
Contractual              5,068,760          4,049,575          423,016(b)                   0          3,626,559
Other                      679,597            638,147                 0                     0            638,147
Supplies                   150,000             55,368                 0                     0             55,368
Travel                     400,000            167,594                 0                     0            167,594
Equipment                  170,000                  0                 0                     0                  0
Partner Match (2)        2,047,994          2,816,349        2,816,349(b)          $2,456,349                  0
In-Kind                          0            167,544          167,544(b)             149,604                  0
Indirect Cost             848,622                   0                 0                     0                  0
Total                  $13,608,015        $11,406,434        $3,409,409            $2,605,953         $7,997,025


          1. The approved budget amounts are for the 2 years ended June 30, 2007. The receipts and expenditures are
          the actual amounts for the period of our audit, July 1, 2005 - March 31, 2007.

          2. Partner Match in the amount of $2,047,994 for the 2 years ended June 30, 2007, was contained in the
          “Other” category in the original award budget.

Federal Funds Disbursed                                       $3,802,144
Costs Incurred                           $11,406,434
Less: Questioned Costs                     3,409,409
Costs Accepted                             7,997,025
Federal Cost Sharing Ratio                 x 33.33%
Federal Funds Earned                                              2,665,408

Refund Due the Government 	                                   $1,136,736

Notes:

(a) 	 SCMEP paid a $2,500 bonus in June 2006 to an employee who worked for the Women’s
      Business Center from January to October 2006. The Women’s Business Center is not an
      MEP cost center. According to OMB Circular A-122, Attachment A, Section A(4)(a)(1), a
      cost is allocable to a grant if it is incurred specifically for the award.




                                                     C-1 

U. S. Department of Commerce                                            Final Report No. ATL-18567
 

Office of Inspector General                                                             March 2009 



(b) 	 We questioned $3,406,909 of the $3,469,409 claimed by SCMEP for subrecipient cost.
      The $62,500 cost we accepted is for costs related to the two subrecipients we did not
      include in our tests, Trident and Midland Colleges (see page 2). Specifically, we questioned
      costs in three categories: (1) $ 423,016 in the contractual cost category; (2) $2,816,349 in
      partner match; and, (3) $167,544 under in-kind. The practices USC, Greenville Tech and
      SC Export used to report subaward costs to South Carolina MEP were not in compliance
      with the financial system requirements of 15 CFR, Sec. 14. The project costs reported by
      Clemson were outside the scope of the award. In addition, SC Export did not fully expend
      its award payments from SCMEP nor meet its matching share. SC Export also had
      unapproved foreign travel expense.

     Of the $2,816,349 in questioned costs for the partner match category, only the Clemson
     maximum project costs of $360,000 were adequately supported. The balance of $2,456,349
     was unsupported. Of the $167,544 in questioned costs for the in-kind category, only the
     Clemson cost of $17,940 was supported, leaving $149,604 unsupported.




                                               C-2 

U. S. Department of Commerce                                           Final Report No. ATL-18567
 

Office of Inspector General                                                            March 2009 



bcc:   Judith J. Gordon, assistant inspector general for audit and evaluation
       Allison Lerner, counsel to the inspector general
       David A. Sheppard, deputy assistant inspector general for regional audits
       John Bunting, Denver regional inspector general
       Ron Lieberman, director, business & science division, office of audits
       Keith Teamer, special agent-in-charge, office of investigations Atlanta field office
       Greg Sebben, special agent in-charge, office of investigations Washington field office
       Annie Holmes, management analyst
       Jackie Day, auditor
       IG Office
       Editor
       McKevitt
       McMahan
       Scott
       Master file
                                                                                    APPENDIXD
 





•
.FElDESMAN
TUCKER
LEIFER'
 FIDElllLP

STACIA DAVIS LE BLANC, EsQUlRE
2024668960/FAX:2024662974
SLEBLANC@FELDESMANTUCKER.COM
                                        September 22, 2008

VIA OVERNIGHT DELIVERY


Kathleen M. McKevitt
U.S. Department of Commerce
401 W. Peachtree St.,NW Suite 2742
Office of Inspector General
Atlanta, GA 303083522

        Re: Response to Draft Audit ReportATL-18567-8-0001

Dear Katie:


        Please find enclosed the response to the draft audit report. We have many questions
        regarding the auditor's calculations and categorization of costs. With less than 30
        working days to respond, we were 110t able to obtain all of the additional documentation
        requested from the four partners in time for this response. We request that you provide
        the audit work papers supporting the final audit report, so that we clearly understand the
        basis for the cost disallowances and can be fully responsive to your findings.

        If you have any questions regarding the response or enclosures, plea$e do not hesitate to
        contact me. Please also advise us as to when you will be releasing the final audit report,
        if it will be in excess of 30 days. The SCMEP, of course, is most anxious to resolve this.




                                                      Stacia Davis Le Blanc
                                                      Senior Counsel

Enclosures
                                                                                     ...---:='   --- .
cc:     Judith Gordon                                                  RE,CEI\TED
        Joyce Brigham
                                                                           SEP ~ ~ 7008

                                                                      BY:




                                                  D-I
 

                                                                        APPENDIXD
 



                               TABLE OF CONTENTS
 

                                                                                          I!
INTRODUCTION                                                                       1
 

OVERVIEW OF THE NATIONAL MEP PROGRAM                                               2
 

PARTNER COSTS                                                                      6      I
 

OVERVIEW OF SCMEP AND PARTNERS                                                     7
 

CATEGORIES OF QUESTIONED COSTS;                                                   10
 

  Contractual Category                                                            10
 

                                                                                          I
  Partner Match Category                                                          11
 

  In-Kind Category                                                        ~       12
 

FINANCIAL SYSTEM MANAGEMENT REQUIREMENTS                                          12
 

  Accurate Disclosure of Actual Costs Incurred                                    14
 

  Comparison of Actual Outlays with Budgeted Amounts                              15
 

    USC Comparison ofActual Outlays with Budgeted Amounts                         16
 

    Greenville Tech Comparison ofActual Outlays with Budgeted Amounts             17
 

    Clemson Comparison ofActual Outlays with Budgeted Amounts                     18
 

    SC Export Comparison ofActual Outlays with BudgetedAmounts                    18
 

  Written Procedures for Determining Allowability                                 19
 

  Single Audit Reports                                                            20
 

SCOPE OF MEP PROJECT                                                              20
 

PERCENTAGE OF PARTNER MATCH                                                       22
 

PROGRAM INCOME                                                                ;   23
 

OTHER QUESTIONED COSTS                                                            25
 

  Bonus             :                                                             25
 

CONCLUSION                                                                        25
 

EXHIBIT LIST                                                                      27
 





                                        D-2
 

                                                                                   APPENDIXD


         South Carolina MEP Response to Draft Audit Report No. ATL-18567-8-0001


 INTRODUCTION

 The South Carolina Manufacturing Extension Partnership (SCMEP) submits this response to the
 Draft Audit Report No. ATL-18567-8-0001 August 2008 (Draft Audit Report). The audit is in
 reference to Award No. 70NANB5H1187 for the period of July 1,2005 through March 31, 2007.
 The auditor questioned $3,409,409, in costs and attributes these costs to the SCMEP partners that
 receive only state funds under the program.

 The records from SCMEP and its partners demonstrate that the reported costs were in fact
 reasonable, allocable, and allowable in accordance With applicable federal cost principles,
 cooperative agreements terms and conditions, NIST policy, as well as the MEP statute. As such,
 NIST should not seek to recover the full $1,136,736 as proposed in the recommendations of the
 Draft Audit Report. The SCMEP disputes the findings and recommendations outlined in the       .
 Draft Audit Report and explains the legal and factual basis for the dispute in detail below.

 One general comment concerning the audit is that the twenty one-month audit period seems
 excessive and arbitrary. The audit period is particularly problematic in light of the fact that the
 auditor did a cursory review of one quarter of SCMEP's accounting records and focused
 primarily on the documentation maintained by the SCMEP partners. The consequence of
 claiming an audit period that spans a twenty-one mo~th period is the ability of the auditor to
 assert substantially larger disallowances after examining a relatively small portion of the
 documentation. If the audit period had been more reasonably limited in scope, the questioned
 costs for a six or twelve month period would have been half the amount now questioned.

 The Draft Audit Report No. ATL-18567-8-000 1 was issued August 21, 2008, but SCMEP was
 only provided thirty days with which to respond. The auditor had from the date of his last
 conference call and e-mail in February, 2008, to prepare the report, but it was not written and
 issued until six months later. We find it extremely unreasonable for the federal auditor to only
 allow the auditee less than 30 days to prepare a full blown response not only by the SCMEP, but
 each of its four partners. In fact, based on the last communication from the auditor, he stated that
 there would be no questioned costs related to South Carolina Export Consortium. It was quite a
 surprise to learn of this on the day the report was issued. Also, during this 30-day period,
 SCMEP's A-133 audit was taking place. The accounting records were simultaneously being
 accessed by the outside audit firm which made it difficult to find the information quickly to
 respond to this audit report.

. In order to clear up the questioned costs and maintain our good standing in the community, we
  want the agency to similarly meet the tight time requirements for this process. We requested
  additional time to be able obtain documentation from our partners, but it was denied. We have
  been unable to determine the source of many of the calculations that the auditor included in the
  report and were provided no audit work papers. We submit the Draft Audit Report Response
  postmarked on September 22,2008 (the thirtieth day from the date of the letter not the receipt of




                                                   1




                                                D-3

                                                                                        APPENDIXD
 



the letter).' The IG, evidently has no time limitation for issuing the final report. If 30 days is a
reasonable time period within which an auditee must respond, then the auditor should similarly
meet the 30 day requirement for issuing the final report so we expect a response by October 22,
2008. SCMEP will again have only thirty (30) calendar days to respond. 2 We note that at the
same time, the auditee is only provided 30 days, NIST will have sixty (60) days to prepare an
audit report action plan which must be approved or disapproved by the within fifteen (15)
working days by the IG 3 The audit resolution should then beprepared by November ~, 2008.
IfNIST has any disagreements with the audit action plan, the Assistant Inspector General for
Compliance and Audit Resolution and the NIST audit resolution officer shall work to resolve any
disagreements within 45 days.4 If agreement carmot be reached, the agency will convene a
meeting ofthe Audit Resolution Council. If the Council does not reach a resolution, the matter .
will be referred to the Deputy Secretary for fmal decision. s The Deputy Secretary is the only
official in the entire Commerce Department that can make the "management decision.,,6 SCMEP
intends to enforce these timelines to the greatest extent possible in order to reach a resolution of
these questioned costs in an efficient and expedient marmer so that It may continue to operate
and provide necessary services to its manufacturing clients. Much time, effort, and money has
been expended by SCMEP that could have been spent towards work for small to medium sized
manufacturers and would have resulted in a positive economic impact which is the mission of the·
MEP program.

OVERVIEW OF THE NATIONAL MEP PROGRAM

Many of the auditor's comments appear to be based on a fundamental misinterpretation of how
the MEP project works as a whole and how the parties interact. For example, the auditor
frequently mentioned that partners failed to "connect the expenditures to specific projects" and
considered work outside of scope merely because it takes place out of state. These statements do .
not acknowledge the global mission and national partnership structure of the MEP program and ,
the critical role that the partners play in the National Manufacturer Extension Partnership. For
that reason this response provides a background on the MEP program in general as well as how
SCMEP works.

The overarching goal of the MEP program, as embodied in the authorizing statute, is to increase
the global competitiveness of United States manufacturing by enhancing productivity and
technological performance. 7 Congress envisioned that MEP Centers would accomplish this goal
by: (1) the transfer of manufacturing technology and techniques from NIST to Centers to
manufacturing companies; (2) participation of individuals from industry, universities, State
governments, other Federal agencies and NIST in cooperative technology transfer activities; (3)
efforts to make new manufacturing technology and processes accessible and usable by small and
medium-sized U.S. companies; (4) active dissemination of scientific, engineering, technical, and
management information to industrial finns; and (5) utilization of expertise and capability that

1 IG   Draft Audit Report, Enclosure I at 1.
2 1d
3 United States Department of Commerce, Departmental Administrative Order No. 213-5, § 6.
41d
SId
6 IG Act, 5 U.S.C.
7 15 U.S.C. § 278k(a).
                                                                                                        I
                                                      2                                                -I
                                                                                                        I

                                                    D-4
 

                                                                                  APPENDIXD
 



exists in Federal labs other than NIST. g Specific activities conducted by the Centers would
include: (I) establishment of automated manufacturing systems and other advanced production
technologies, based on research by the Institute, for the purpose of demonstrations and
technology transfer; (2) the active transfer and dissemination of research findings and Center
expertise to a wide range of companies and enterprises, particularly small- and medium-sized
manufacturers; and (3) loans, on a selective, short-term basis, of items of advanced
manufacturing equipment to small manufacturing firms with less than 100 employees. 9

MEP Centers are instructed, by statute, to achieve these objectives by forming partnerships with
organizations such as private industry, universities, and State governments. The goal of these
partnerships is three-fold: to accomplish programmatic objectives, to further the impact of the
Federal investment, and to assist recipients in meeting their cost-share requirements. IO The
partnering organizations take the knowledge shared by the MEP Center and, through their own
activities, assist manufacturing firms, expanding the impact ofthe Federal investment.

As referenced in the draft audit report, SCMEP was established in 1989 as one of the original
three MEP programs. The performance of SCMEP is reviewed by NIST on an annual basis with
a bi-annual review that is more in-depth and performed by an independent panel of experts. Just
a few months prior to this,' NIST proclaimed that SCMEP was doing an outstanding job. II
Over the past twenty years, SCMEP has developed many strong partnerships. Working with
these organizations and with manufacturers directly has led SCMEP to the realization that
participating in the statewide and nationwide economic development networks is an efficient and
effective way for SCMEP to accomplish its mission of improving the global competitiveness of
South Carolina small and mid-sized manufacturers.

Partnerships, consistent with statutory mandates, add value to SCMEP by reducing the
duplication of activities and by leveralfing the partner's activities to increase SCMEP's mission
effectiveness, penetration, and output. 2 Partners use their own reputation and marketing and
referral activities to promote the MEPefforts and services, resulting in increased market
penetration and efficiencies in project execution. Partners also increase SCMEP's value and
prevalence within the American manufacturing community by integrating MEP services into the
partner's own services to enhance achievement and performance by small and medium sized
manufacturers.

Activities performed by partners are mutually beneficial to the partner, its members, SCMEP's
clients, and the Center itself. The goal of the MEP program, as embodied in its programmatic
objectives, is not to bring other resources back into the Center (the typical paradigm of cost-share
programs), but instead the goal is to push the technology, programs, and expertise as far out into
the American manufacturing community as possible. The direct benefit the Center receives from
its partnerships is the ability of another entity to provide the services and perform the education
and outreach functions that would otherwise fall to the Center, allowing the Center to focus on


B    15 U.S.C. § 218k(b).
 

9    15 U.S.C. § 218k(c)
 

9Id.
 

II   See Exhibit I, 2006 NIST Annual Review Report.
 

12   America Competes Act, P.L. 110-69, Sec. 3003,121 Stat. 581 (2001).
 



                                                          3




                                                         D-5
                                                                                 APPENDIXD


 offering additional services, education, and outreach to SMEs.

 Recently, in August 2007, Congress enacted a legislative amendment to clarify how the MEP
 Centers' cost contributions should be determined. Clarification became necessary after the audits
 of2003 and NIST's misguided attempts to conform the program to grant rules that in reality
 frustrate the mission and purpose of the MEP program as conceived by Congress.

The provisions in the legislative clarification that replace the prior language of 15 U.S.C. §
278k(c)(3) clarify the nature and classification of non-Federal costs contributed by partnering
organizations. The legislation further states that:

                In meeting the 50 percent requirement, it is anticipated that a Center will
                enter into agreements with other entities such as private industry,
                universities, and State governments to accomplish programmatic
                objectives and access new and existing resources that will further the
                impact on the Federal investment....All non-federal costs, contributed by
                such entities and detennined by a Center as programmatically reasonable
                and allocable are includable as a portion of the Center's contribution. Id.

The amendment to the MEP legislation provided clarifications that first, all non federal costs
contributed by partnering entities count as a portion as the Center's cost contribution. Second, it
defines "costs incurred" as "costs incurred in connection with the activities undertaken to
improve the management, productivity, and technological perfonnance of small- and medium­
sized rpanufacturing companies." America Competes Act, Pub. 1. 110-69, § 3003(a)(3)(C).
Third, the statute clearly places the authority for determining which costs are allocable and
reasonable on the Center. Fourth, the amendment encourages Centers to utilize the partners'
existing resources in accomplishing the MEP mission. Without these partnerships, the Centers
would not meet their cost share requirements. The statute contemplates that not all partnerships
will involve the transfer of federal dollars and therefore to classify the relationship between
Centers and partners as anything other than a partnership would be inaccurate and inconsistent
with the authorizing statute.

The legislative history is clear that contributions by industry, universities, and state governments,
which frequently act as partners, (i.e. the partners of SC:MEP) "may be included as a portion of
the Center's 50 percent or greater funding obligation if it is detennined by the Center to be
programmatically reasonable and allocable." H. Rept. 110-289 at 16 (emphasis added).

  The auditor dismisses the value of the partnership by arguing that these partners would exist
  whether there is an MEP Center or not. However, in doing so the auditor dismisses the statutory
  requirement that partners offer their existing resources to finance their programmatic activities.
  Contrary to the auditor's interpretation, the MEP Center is mandated to establish partnering
  relationships with existing organizations in order to draw down federal funds. These
  partnerships will assist the MEP Center to efficiently and economically promote the transfer of
. technology.

In determining whether an amendment clarifies or substantively changes a prior law, a court may



                                                  4




                                               D-6

                                                                                                    APPENDIXD
 



consider several factors. 13 One such factor is whether the enacting body has stated its intent to
clarify the prior enactment. 14 Here we have such a declaration by Congress, not just in the text
of the act itself, but also in the legislative history. Congress titled the section "Clarification of
Eligible Contributions in Connection with Regional Centers Responsible for Implementing the
Objectives of the Program." Clarification should be given its ordinary meaning and should be
treated as a declaration by Congress of its intent for the amendment to serve as a clarification.

Another factor courts may consider is whether a conflict or ambiguity existed with respect to the
interpretation of the relevant provision when the amendment was enacted. IS The prior provision
on a Center's federal share stated only that "applicant shall provide adequate assurances that it
will contribute 50 percent or more of the proposed Center's capital and annual operating and
maintenance costs for the fIrst three years and an increasing share for each of the last three
years.,,16 The regulations enacted by the Department of Commerce (illegally) elaborated on this
provision, but amendment was necessary in light of conflicting interpretations as to sources of
the applicant's contributions. The opposing interpretations arose after a series of audits of MEP
Centers where they disputed the sources of cost share, claiming that contributions from
partnering organizations were not allocable to the MEP Centers because these organizations
would have carried out these activities without the MEP partnership. Despite claims by the
Center and their partners regarding the value and mutual benefit of these partnerships, the auditor
still fail recognize their expenditures as valid sources of matching funds. As explained above in
Section LB, the new legislation clarifIes Congress' intent for a Center to include a partner's
expenditures determined to be reasonable and allocable to meet the cost share requirement. l ?

Where there is no explicit instruction from Congress as to whether a statute is applied
retroactively, courts are generally reluctant to allow such an effect. See Bowen v. Georgetown
University Hospital, 488 U.S. 204, 208 (1988). In its retroactivity analysis, the Supreme Court
quotes Professor Llewellyn for his recognition of the tension between retroactive application and
remedial statutes. 18 The amendment in this case has none of the characteristics that would bar
retroactive application and is much more akin to the remedial statutes which ought to be applied
retroactively to "promote the ends ofjustice." In Landgrajv. USI Film Products, 511 U.S. 244,
270 (1994) the Supreme Court announced that "the court must ask whether the new provision
attaches new legal consequences to events completed before its enactment.,,19 The amendment
does not impose a new penalty, a new liability, or create a new right of action. Concerns about


13 Piamba Cortes v American Airlines, 177 F.3d 1272, 1283 (1999).
 

14 ld. at 1284 ([C]ourts may rely upon a declaration by the enacting body that its intent is to clarify the prior
 

enactment.).
 

IS See Liquilux Gas Corporation v. Martin Gas Sales, 979 F.2d 887, 890 (1992)..
 

16 15 U.S.C. § 278k(c)(3).
 

17 America Competes Act, Pub.L. 110-69, § 3003, 121 Stat. 587 (2007) (non-Federal assets obtained from the
 

applicant and the applicant's parmering organizations will be used as a funding source to meet not less than 50
 

percent.....).
 

18 Landgrafv. USl Film Products, 511 U.S. 244,264 n. 16 (1994), quoting Llewellyn, Remarks on the Theory of
 

Appellate Decisions and the Rules or Canons about How Statutes are to be Construed, 3 Vand.L.Rev. 395 (1950) (
 

[a] statute 4nposing a new penalty or forfeiture, or a new liability or disability, or creating a new right of action will
not be construed as having a retroactive effect; [r]emedial statutes are to be liberally construed and if a retroactive
interpretation will promote the ends ofjustice, they should receive such construction.).
19 See also Piamba Cortes, 177 F.3d at 1283 ("We first look to see whether the amendment effects a substantive
change in the legal standard or merely clarifies the prior law.").


                                                            5




                                                          D-7
 

                                                                                 APPENDIXD


 the retroactive effect are absent in cases where an amendment is deemed to clarify the relevant
 law.2° Therefore the hanns in applying the amendment retroactively are inapplicable in this case.

 PARTNER COSTS

The auditor proposes disallowance of these costs because the auditor determined that the partners
were subrecipients, should have been subject to the flow down provisions of 15 C.F.R. §14.5
and therefore required to meet the Financial Management Standards applicable to recipients, set
forth in 15 C.F.R. § 14.21, and that none of the four questioned partners had met these
requirements. SCMEP rejects the auditor's characterizations of partners as subrecipients.
Nevertheless the partners have accounting systems in place and records that meet the
requirements of 15 C.F.R. § 14.21. Furthermore, the auditor's detennination that the partners are
subrecipients fails to give the full picture. All four partners have multiple characteristics that
make it difficult to fit them into one particular category for every type of transaction. For
example, SC Export, for the most part, seems like a vendor/contractor, but is also a partner. USC
might be categorized as a.third party contributor because it receives its funds directly from the
state but is a key partner in fulfillment of the MEP mission.

As noted in the Overview section, the authorizing statute requires MEP Centers to fonn a
network of partnering organizations to assist them in reaching small- and medium-sized
manufacturers, thereby furthering the impact of the Federal investment. The statutory emphasis
of the program is on forming strategic partnerships to use existing resources and avoid
duplication of services. 21 Partnering organizations of an MEP Center can be entities in private
industry, universities, and State governments.22 The Centers' partnerships are integrated with
existing state economic development, community college, and trade or industry association
programs. This statutory partnering model is unique to the MEP program; it couples the
partners' work with that of the MEP Centers so that the provider of services to manufacturers is
indistinguishable between the partner and the Center. The Centers' partners have the same
overall mission objectives and share common values, approaches, and targeted market segments.
A Center may not expend federal dollars unless it has met the statutory requirement that it
partner with other entities.

  The work of the partners is integrated with the MEP Centers to increase the efficiency and
  success of the MEP program. MEP partners work with the Center in reaching additional
  manufacturers, providing additional services, and transferring technology to SMEs to fulfill the
  core mission of the MEP Centers stated in 15 U.S.C. § 278k. The partners' work has been added
  to achieve the desired synergies, and the partners' output is beyond the partners' "normal" or
  "regular" operations, demonstrating a direct benefit from the partnership. Together the MEP
  Center and the partner are able to coordinate and collaborate on activities that each would
  conduct entirely on its own if it were not for the partnership. In this way the Center uses the
  existing resources of the partner to further the impact of the Federal investment by reaching
. manufacturers it would not, on its own, have the ability to reach and to provide additional



20 See ld
 

21 America Competes Act, P.L. 110-69, Sec. 3003(a)(3)(C).
 

22 /d.




                                                        6




                                                       D-8
                                                                                               APPENDIXD


services the Center could not otherwise offer. 23 Using a network of partners, the MEP Center
can concentrate its resoUrces on serving clients and on technology transfer. Without such a
network, Federal resources would be diverted from providing direct services to SMEs and
instead expended on marketing and outreach to recruit clients. In this manner the activities of
the partners are essential to the efficiency and effectiveness of the MEP Center and its ability Mo
accomplish the programmatic objectives set forth in the statute and regulation. See 15 U.S.C. §
278k and 15 C.F.R. § 290.3.

OVERVIEW OF SCMEP AND PARTNERS

  As one of the original MEP programs, SCMEP's unique structure, and general mission to make
. South Carolina's SME's more globally competitive. The Draft Audit li!;ts questioned costs of
  four partners including the University of South Carolina Center for Manufacturing and
  Technology (USC), Greenville Technical College-Buck Mickel Center (Greenville Tech), South
  Carolina Export Consortium (SC Export), Clemson University's Clemson Apparel Research
  (Clemson)? In efforts to fulfill this mission, SCMEP has developed partnerships with these key
  players involved with the South Carolina manufacturing industry to have not only geographic
  coverage, butalso to form partnerships with entities with particular areas of expertise that can
  assist SME's in a variety of substantive issues as well.

 SCMEP has used the same basic contract for more than twenty years with its partners. Initially,
 these contracts took the form of memoranda of understanding. More recently, at the direction of
 NIST, SCMEP has tried to structure their contracts to characterize the partners as subrecipients.
 The subrecipient format does not fit, because as eX~lained earlier, in the national context, one
.partner may have characteristics of a subrecipient,2 a contractor/vendor,26 or even a third party
 contributo?? at various points in time. A key factor in analyzing the relationship between
 SCMEP and its partners is that none of the SCMEP partners receive federal funds. The source of
 the partners' funds is the state of South Carolina which makes them look even less like
 subrecipients and more like a third party contributors or vendors of the SCMEP program?8
 Because the only funds that SCMEP partners receive from SCMEP are state funds, there is no



23 The program regulation, 15 C.F.R. Part 290, directs Centers to leverage their resources by concentrating on
approaches that are broadly applicable to a range of organizations and regions. 15 C.F.R § 290 .3(e). The regulation
defmes leverage as "the principle of developing less resource-intensive methods of delivering technologies (as when
a Center staff person has the same impact on ten firms as was formerly obtained with the resources used for one, or
when a project once done by the Center can be carried out for dozens ofcompanies by the private sector or a state or
local organization)." ld.                                                        .
24 See Draft Audit Report pg 3, note the auditor initially suggested disallowance of costs for Midland College, and
Trident College but ultimately decided not to test them because of their relatively small size, and therefore suggested
allowing their costs. These partners are not discussed in this response.
25 15 C.F.R. 14.2 (jj) (defming a subrecipient as an entity that receives a subward and is accountable to the recipient
for use of the funds).
26 15 C.F.R. 14.2 (i) (defming contact).
27 15 C.F.R. 14.2 (rm) (defining third party in-kind contributions as a non-federal non-cash contribution that
directly benefit and are specifically identifiable to the project such as goods and services).
28 See Cerebal Palsy Center a/the Bay Area, DAB No. 1468 (1994) (holding that although an entity does not have
to have knowledge that it is receiving federal assistance, the receipt offederal funds either directly or through
another recipient, makes an entity a recipient and therefore, subject to the relevant responsibilities).


                                                           7




                                                       D-9
                                                                                             APPENDIXD


subaward made and there should not be a flow down of all the tenns and conditions. 29

The SCMEP program was originally housed at the University of South Carolina and later
separated into its own entity, a non-profit organization with its own identity. The USC's Center
for Manufacturing and Technology (CMAT) continues to carry on activities as an MEP partner
the program's purpose is to support the mission of SCMEP by providing many similar services as                        I'
                                                                                                                      I
the MEP Center. Additionally, it provides a great deal of direct support through the students such                    I
as assisting client manufacturing companies in building websites, and providing marketing
support. The parties often work together as joint ventures by referring clients to each other and                     I,
sharing infonnation and technology. One example of how the partnership works is that CMAT
may refer a larger client to the SCMEP Center, while the Center will refer smaller clients to the                     I
CMAT program so because CMAT, with its state funding, provides services to clients at no cost                         I
                                                                                                                      I
to the client. USC receives state funding directly from the South Carolina Higher Education
Commission, not from the SCMEP (Le. money for USC never even touches SCMEP's bank                                     I
 

account). This is a perfect example of a partnership relationship contemplated under the MEP
statute.
                                                                                                                      I'
 


GreenYille Tech houses one of the three SCMEP offices at the Buck Mickel Center, the
continuing education division of the community college. The center offers courses and training
of particular interest to SMEs and also caters to the specific needs of smaller companies by .
providing flexible schedules and accommodating the financial needs of smaller companies. In its
partnership Greenville Tech and SCMEP provide classes that assist SMEs that meet MEP
requirements. Those classes are listed on the quarterly report to include training in 5S, Lean 101,
Lean Six Sigma Overview, etc. Greenville Tech also provides marketing support to SCMEP and
refers companies to the SCMEP Center. Like USC, money for MEP activities allotted to
Greenville Tech comes from the South Carolina Higher Education Commission as well except
that this money does go through SCMEP's bank account prior to disbursement to Greenville
Tech.

Clemson University's contribution to the SCMEP project is the work with Clemson Apparel
Research (CAR). The work under this program provides vastly specialized expertise in a
specific manufacturing area that benefits the program with technological infonnation as well as
the client companies with its highly esteemed national reputation. CAR provides consulting,
manufacturing and pattern design services and the program was established with the mission of
revitalizing the domestic sewn-products industry by applying advanced technology and
management practices. 30 The work is especially important because the fast turn manufacturing
and supply chain optimization solutions have been applied to industries outside of the textile
industry. Just as with Greenville Tech, money allotted to CAR for MEP activities comes from
the South Carolina Higher Education Commission through SCMEP.

SC Export is a key partner that has provided export expertise for manufacturing clients for over a
decade. SC Export, a 501(c)(3) that has a close partnership with the South Carolina Chamber of

29 Subaward is defined in 15 C.P.R. § 14.2(ii) as "an award offmancial assistance in the fonn ofmqney, or property
in lieu ofmoney;made under an award by a recipient to an eligible subrecipient or by a subrecipient to a lower tier
subrecipient." An award is cash that originates from the federal government. See 15 C.F.R. § 14.2(f).
30 See http://car.clemson.edul




                                                         8




                                                       D-IO
                                                                                  APPENDIXD



Commerce. Their specialty is to assist companies in the development and implementation of
business, marketing and global trade strategies. This has been a successful partnership where
they have provided consultation services to assist companies export their products in foreign
markets allowing SCMEP to further achieve its mission of improving the global competitiveness
of South Carolina manufacturers. Over the course of the audited period, SC Export contracted to
provide a deliverable for a set price (i.e. not on an hourly basis) over several contracts. Payment
for the contracted work comes from South Carolina Higher Education Commission through
SCMEP.,

The relationship between SCMEP and its SC Export is not that of recipient and subrecipient, but
is instead that of recipient and a contractor/vendor. Section .21O(d) of A-I33 states the recipient
must use its judgment in determining the appropriate relationship with entities:
       (d) Use of judgment in making determination. There may be unusual circumstances or
       exceptions to the listed characteristics. In making the determination of whether a
       subrecipient or vendor relationship exists, the substance of the relationship is more
       important than the form of the agreement. It is not expected that all of the characteristics
       will be present and judgment should be used in determining whether an entity is a
       subrecipientor vendor.
Guidance on determining whether the relationship is that of recipient-subrecipient.or recipient­
vendor can be found in OMB Circular A-B3, § _.210:

              (b) Federal award. Characteristics indicative of a Federal award received
       by a subrecipient are when the organization:
                      (1) Determines who is eligible to receive what Federal financial
              assistance;
                      (2) Has its performance measured against whether the objectives of
              the Federal program are met;
                      (3) Has responsibility for programmatic decision making;
                      (4) Has responsibility for adherence to applicable Federal program
              compliance requirements; and
                      (5) Uses the federal funds to carry out a program of the
              organization as compared to providing goods or services for a program of
              the pass-through entity.

             (c) Payment for goods and services. Characteristics indicative of a
       payment for goods and services received by a vendor are when the organization:
                     (l) Provides the goods and services within normal business
             operations;
                     (2) Provides similar goods or services to many different
             purchasers;
                     (3) Operates in a competitive environment;
                     (4) Provides goods or services that are ancillary to the operation of
             the Federal program; and
                     (5) Is not subject to compliance requirements of the Federal
             program.



                                                 9




                                               D-II

                                                                                  APPENDIXD
 



                                                                                                      i
SC Export operates independent of SCMEP and meets the requirements of subsection (c). It
                                                                                                      I
provides goods and services that are                                                                  I


                                                                                                      r

                                                                                                      I

Clearly under this guidance SC Export is either a vendor and/or a third party contributor to
SCMEP based on the parties' actual interactions and the substance of the relationship meeting
more of the criteria under .210 (c) rather than 21 0 (b). It is the responsibility of SCMEP to
determine the relationship and it is the substance of the relationship not the name on the
agreement. SCMEP's documentation ofSGExport's cost contributions meets the necessary
criteria. The cost contributions from SC Export are verifiable in SCMEP's records, are not
counted toward any other federal grant, and are necessary and reasonable for proper and efficient
accomplishment ofNIST MEP objectives given the nature ofSC Export's activities and the cost
share agreement between SCMEP and SC Export.                                                          i

CATEGORIES OF QUESTIONED COSTS                                                                        I
 

The draft report first outlines the categories in which it questioned reported costs by 1)
                                                                                                      I
 

contractual category 2) partner match category, and 3) in-kind category. Next the audit evaluated
each issue by partner. The basis for these categories of costs and the specific numeric values
                                                                                                      I·
assigned to each category is unclear. The twenty-one month audit period and the frequency of
financial and performance reporting may have played a factor in the confusion, because costs are
incurred, but may be paid in advance or after events and activities. In general, the award period
was one year and the financial and performance reports were quarterly. The distinctions among
these three categories are unhelpful in analyzing the costs reported and we cannot ascertain the
sources for the amounts. Because of the audit period and the lack of infonnation regarding how
the auditor arrived at any given figure, there is no way to compare apples to apples in the
analysis. For that reason, it is difficult to respond in the manner presented by the auditor.
Consequently, SCMEP's response will address the logic, authority, and conclusions reached by
the auditor with the questioned costs as a whole. If the auditor will provide his audit work
papers, perhaps we can better understand the calculations.


       Contractual Category

The Draft Audit Report questions $423,016 in contractual costs for three partners: Greenville
Tech, Clemson and SC Export. Because of the small size of Midland and Trident Colleges, the
auditor chose not to test the costs claimed by these partners and therefore accepted the costs
claimed by them in an amount totaling $62,500. It is not clear where the $423,016 figure is
derived as "contractual costs." This amount may represent the amount claimed by SCMEP in
reimbursements to its partners, but it may not have actually reflected costs for the audited period
since quarters are reported after the fact. For example, a partner might have reported costs from
June of 2005 but requested reimbursement July, August or even September. This is because
SCMEP cannot claim a cost until it is incurred.

Our understanding of "contractual costs" would be based on the relevant partner agreements for
the audit period. In each of the respective partnership agreements for the audited period SCMEP




                                                 10
 





                                               D-12
 

                                                                                             APPENDIXD


agreed to provide state funding in the amount of$185,000 to Greenville Tech3!, $180,000 to
Clemson and $320,00032 to SC Export. 33 USC was not included in this analysis because
"SCMEP did not claim an amount in the contractual costs category for the award to USC.,,34 It
should be noted that the contract periods do not match up exactly with the audit period.
Furthermore, USC's cost share agreements stated it would receive a total of $550,000 directly
from the South Carolina Commission on Higher Education. 35         .      .

Each partner maintained records for all of its expenditures of funds pursuant to the cost share
agreements and reported them to SCMEP in their quarterly reports. The auditor claims that the
basis of the questioned costs inCluded failure to meet [mancial management system
requirements, and attributing costs to work outside the scope of the project. SCMEP and its
partners have demonstrated that they meet financial management system requirements and that
all reported costs are within the scope of the project. These issues are discussed in more detail
below.

         Partner Match Category

The Draft Audit Report also questions $2,816,349 in costs under the "partner match" category
for a variety of reasons. It is unclear where this sum is derived from and whether the "partner
match" in fact is solely from the partners. Our understanding of the "partner match" would be
the total of the amounts reported to SCMEP of all of the partners' quarterly reports for the audit
period.

In this section the auditor notes that SCMEP failed to break down this category by partner when
it reported cost share to NIST. Accordingly the auditor decided to "modify [the] audit approach"
as follows:

         We calculated the total eligible subrecipient project costs individually and in total and
         then compared the total to the amount SCMEP claimed to NIST. SCMEP payments to
         the. subrecipients determined how much of each subrecipient's cost SCMEP could claim.
         If payments to a subrecipient were less than the amount awarded, we based required
         matching share and total project expenditures on the amount of actual payments. (Draft
         Report, Page 3)

This "modified approach" is problematic for two reasons. First, it limits the allowable costs
under the project by imposing cost share restrictions on each individual partner based on amount
of funds received as a whole. Essentially, this approach precludes SCMEP from counting costs
that are otherwise eligible tinder the federal cost principles, cooperative agreements terms and
conditions, NIST policy, as well as the MEP statute. We could find no requirement that a
recipient must separately itemize and report cost contributions based on the same ration as the



31 See Exhibit 2 Greenville Tech Agreements (7/1/05-6/30107 and 711106- 6/30107)
 

32 See Exhibit 3 Clemson Agreements(7/1105-6/30/07 and 7/1106- 6/30/07)
 

33 See Exhibit 4 SC Export Agreements (111107-6/3/07, 7/1106-] 2/31106, 111106-6/30106,111105- ]2/31105)
 

34 Draft Audit pg 3
 

35 See Exhibit 5 USC Agreements(7/] 105-6/30107 and 711/06- 6/30/07)
 





                                                         11




                                                      D-13
                                                                                APPENDIXD


recipient. The recipient has the right to contract with its partners to determine requirements. 36
SCMEP had the discretion to determine which partner cost contributions would be claimed on
the SF 269 and. there was no requirement imposed under the cooperative agreement with NIST
that each partner contribute a certain ratio of cost share. SCMEP sets goals for its partrlers, but
realizes that sometimes partners may not reach the goals and sometimes may exceed the goals. .
For that reason, the partner share reported by SCMEP in a given quarter may not match the
amount reported by the partner. Instead, the partners reported their costs to SCMEP and SCMEP
evaluated each report and determined the amount necessary to meet its cost share obligation.
under the cooperative agreement as well as determining whether it was reasonable, allocable and
allowable prior to including it in its reports to NIST.


Second, this approach does not take into account that NIST grant officers discouraged recipients
from being "over matched," or reporting it on SF 269's. That meant that even if a particular
partner well exceeded the goal for expenditures in a particular quarter, SCMEP only reported
their expenditures up to the amount necessary to meet its federal matching requirements in that
quarter under the terms of its cooperative agreement.

          In-Kind Category

In the third category, "in-kind," the auditor disallows $167,544 of in-kind costs claiming that the
costs were unsupported and/or out of scope. Again, it is unclear where the sum of $167,544 is
derived from as well as the reason for differentiating in-kind match from other types of match.
This distinction may be a result of the manner in which one of the partners reported its cost share
to SCMEP prior to the change in the form for quarterly reports. The total.of"partner match" and
"in kind," $2,983,893, is more $58,864 more than what SCMEP actually reported over the
audited period ($2,925,029). In any event, all costs reported were reasonable, allocable and
allowable under the project. All reported costs were adequately supported and within the scope        .\
ofthe program.                                                                                         j
                                                                                                       I


This response will further address each of the cited reasons for disallowing the partner costs in      I
the contractual, partner match and in-kind categories. This will be dOlle based on 1) financial
management system requirements, 2) scope of the project 3) partner cost share 4) program
income, and 5) other costs.
                                                                                                       I
 

FINANCIAL SYSTEM MANAGEMENT REQUIREMENTS

The auditor claJmed that accounting systems of SCMEP's partners did not meet financial
management system requirements for a federally funded project. The auditor specifically
questions adherence to 15 C.F.R. § 14.21 subsections (b)(I), (4)and (6).

Appropriate Standard is 14.23 Dot 14.21

As discussed earlier, for a variety of reasons, SCMEP's partners are not in fact subrecipients as

36.S ection   .210(d) of A-133


                                                 12


                                                                                                       il.



                                               D-14
 

                                                                                                     APPENDIXD



defined by 15 C.F.R. § 14.2 OJ). Without federal funds or property, there is no nexus to require
SCMEP partners to meet the financial management standards of 15 C.F.R. § 14.21. Instead, the
appropriate standard to address their costs is 15 C.F.R. 14.23,37 and not 15 C.F.R. § 14.21.
A third-party contributor is not required to meet the terms of 15 C.F.R. Part 14, or the cost
principles at 2 C.F.R. Part 230. 15 C.F.R. §14.23(a)(4) states that the cost contributions must be
"allowable under the applicable cost principles." This does not mean that a third party
contributor must change its accounting practices and procedures or document its salary
expenditures as required under the cost principles or the terms of the cooperative agreement.
The standard that the recipient must meet in documenting third party in-kind contributions is ''to
the extent feasible" by the same methods generally used by the recipient for its own employees."
The basis for the "valuation for personal service, material, equipment, buildings and land shall be
documented." 15 C.F.R. § 14.(h)(4). The SCMEP partners met these standards. The recipient is
responsible for detefmining the allowability of the cost contributions as pennitted under the cost
principles. SCMEP excludes any partner expenditures that are not allowable under the cost
principles and maintains the documentation supporting all other costs it claims as non-federal
share under its cooperative agreement.

SCMEP identifies the partner operating costs that support activities that benefit all of its clients.
SCMEP partners do not track its costs related directly to its activities on behalf of manufacturers;
many of the services provided to its entire membership directly benefit its manufacturing
members. The The method of allocation was reviewed by and received approval from the NIST
Program Officer, Grants Officer, and legal counsel. SCMEP established a reasonable basis for
the valuation and meets the documentation standard for in-kind contributions under 15 C.F.R. §
14.(h)(4).

NIST Review and Approval of Partnership Agreements

Although the statutory authority considers costs deemed by the Center to be allocable, NIST has
its own review and approval procedures. The NIST-approved SCMEP Operating Plan for the
audited period clearly outlines the collaborative activities of SCMEP and its partners and
describes the costs that its partners were to incur (and did, in fact, incur) in furtherance of the
Center's mission. This Operating Plan, including the description of the partnership s, was
reviewed and approved by the NIST Grants Officer, the Program Officer, and legal counsel prior
to issuing the awards. Approval from the Grants Officer is additional support for the proper
inclusion of the costs incurred as part of the Center's cost share. OMB Circular A-122, codified
at 2 CFR Part 230, defines "prior approval" as:


37
     15 C.F.R. 14.23 which states:
           a) All contributions, including cash and third party in-kind, shall be accepted as part of the recipient's cost
           shariilg or matching when such contributions meet all ofthe following criteria:(I) Are verifiable from the
           recipient's records.(2) Are not included as contributions for any other federally assisted project or
           program.(3) Are necessary and reasonable for proper and efficient accomplishment of project or program
           objectives.(4) Are allowable under the applicable cost principles.(5) Are not paid by the Federal
           Government under another award, except where authorized by Federal statute to be used for cost sharing or
           matching.(6) Are provided for in the approved budget.(7) Conform to other provisions of this part, as
           applicable.



                                                             13




                                                            D-15

                                                                                  APPENDIXD
 



       [S]ecuring the awarding agency's permission in advance to incur cost for those
       items that are designated as requiring prior approval by this part and its
       Appendices. Generally this permission will be in writing. Where an item of cost
       requiring approval is specified in the budget of an award, approval of the budget
       constitutes approval of that cost.

Partners Meet 14.21

Nevertheless, SCMEP and its partners also meet the requirements of 15 C.F.R. § 14.21 with
respect to the subsections cited by the auditor because they maintain accurate, current and
complete disclosures of financial results of each project, compare outlays/expenditures with
budget amounts within their accounting systems and as reported quarterly to SCMEP, and have
SCMEP written procedures for determining the reasonableness, allocability and allowability of
the costs under the applicable costs principles of the award. Each partner and the budget
categories were approved at the issuance of the award.

USC, Clemson, and Greenville Tech, the three institutions of higher education receive other
federal funds and are regularly subjected to OMB Circular A-133 audits. These entities have
financial management systems that meet federal requirements, written policies and procedures
governing the use of federal dollars, accurately report their costs to SCMEP, and comply with all
federal requirements for documenting their expenditures in furtherance of the MEP mission­
which they provided to the auditors. SC Export is a 501(c)(3) non-profit organization that has a
close partnership with the South Carolina Chamber of Commerce. Pursuant to the partnership,
all of the accounting is done by the Chamber of Commerce and SC Export's financial records are
subject to regular audit by state auditors along with all of the financial records with the Chamber.
In addition, SC Export receives federal funding for other projects, that are not included with the
SCMEP activities, and has policies and procedures in place for accurately reporting the use of
federal dollars. In sum, the auditor's conclusion that the SCMEP partners failed to meet the
financial system management requirements is without merit. In the analysis, the auditor also
seems to ignore the fact that the funds allocated to each partner Under the SCMEP award are
solely state funds.

       Accurate Disclosure of Actual Costs Incurred

Each partner entered into a "cost share contract" with SCMEP that outlines the partner's role in
the project and requires quarterly reporting of expenditures. Pursuant to the cost share contracts,
partners receive state funding for the MEP project and each partner agrees to report its eligible
program expenditures to SCMEP on a quarterly basis. Next, SCMEP then reports those
expenditures to NIST as non-federal cost share on the SF 269. .

In the Operating Guidelines, NIST directed that the partner budgets must align with the MEP
Centers' budgets. Each partner has its own existing accounting system that tracks all of the
expenditures allocable to the SCMEP project. However, each partners' pre-existing system may
not have accounting codes, columns or categories that directly correlate to those used by NIST.
The partners, therefore, must identify the costs using the accounting codes for its accounting
system, correlate them to NIST budget line items, and total them each quarter. The auditor, for



                                                 14
 





                                                D-16
 

                                                                                            APPENDIXD
 



some reason, did not understand this process.

SCMEP never required the partners to establish an SCMEP cost center because just like SCMEP,
most all oftheir operating costs are eligible cost share. 38 The partners rely on their own
accounting systems already in place for tracking all of their MEP expenditures. In order to create
the quarterly reports they then tally up all eligible MEP expenditures under the categories
provided on the SCMEP quarterly financial reports.

SCMEP developed a financial report along with instructions to be used by all of its partners and
reached an agreement with each partner regarding which ex~enditures by accounting class code
would be reported in the categories provided on their form.     The partners identify the
reasonable, allocable, and allowable costs within their existing accounting systems used for their
operations and tracked by their accounting class codes that could then be reported in the budget
categories stipulated by SCMEP.

The documentation submitted by SCMEP partners follows detailed procedures to allow SCMEP
to determine that the costs are reasonable, allocable, and allowable. SCMEP is the recipient and
                                                                             40
is ultimately financially responsible for ensuring the allowability of costs. This procedure, to
which the parties agreed to in writing, and the results of which were made available to the
auditors, is sufficient to show that the non-federal dollars expended by SCMEP partners were
expended to further the MEP statutory mission. It is the parties to the Agreement who are in the
best position to know what they intended by the Agreement,41 As noted above, SCMEP is
                                                                                        42
responsible for determining whether the costs are reasonable, allowable, and allocable.

         Comparison of Actual Outlays with Budgeted Amounts

As mentioned earlier in the section on "partner match," at times, some partners report more costs
than are needed for SCMEP to meet its non-federal cost share for a particular quarter. Often,
SCMEP had its OWfi cost share, such as from program income, to be included in the quarterly SF
269s. In those cases, if SCMEP did not need to include all eligible cost share from its partners, it
would only report a portion. That is why the quarterly report totals for all of the partners'
eligible expenditures do not match the totals reported on the SF 269s. Again, the federal
government imposes a standard report using broad categories that require the recipient to be able
to explain how those numbers were calculated.

Since the auditor was unable to understand how partners' costs were accounted for and reported


38 See 15 U.S.C. § i78k (c)(ri) ("All no-Federal costs, contributed by such entities and detennined by a Center as
programmatically reasonable, and allocable under MEP program procedures are includable as a portion of the
Center's contribution.")
39 See Exhibit 6 SCMEP fonn and instructions.
40 15 C.F.R. § 14.2(ff) "Recipien~ means an organization receiving financial assistance directly from the DoC to
carry out a project or program." 15 C.F.R. § I ~.2(jj) "Subrecipient means the legal entity to which a subaward is
made and which is accountable to the recipient for the use ofthe funds provided."
41 See National Urban League, Inc., United States Deparnnent of Health and Human Services Departmental Appeals
Board, No. 294 (April 30, 1982)(riAB adopted Grantee's interpretation as reasonable, and gave it more weight than
the Agency's interpretation since the Grantee was a party to the agreement.)
42 America Competes Act, P.L. 110-69, Sec. 3003, 131 Stat. 587 (2007).




                                                        15




                                                     D-17

                                                                                   APPENDIXD
 



and to illustrate how cost share is reported and accounted for, it is helpful to analyze one
quarterly submission. Using the quarter of January - March 2007, USC reported a total of
$42,948 in actual and $19,541 in match for a total of $62,489.43 These figures include personnel
costs, (s~laries and fringe benefits) and operating costs (travel, office supplies, project supplies,
equipment, rent and utilities). In the same quarter, Greenville Tech reported $8,751 in actual and
$273,860 in match with a total of $282,611.44 Clemson reported $15,783.01 in actual and
$60,417.47 in match with a total of $76,200.48. 45 SC Export reported $30,340 in actual and $0
in match with a total of $30,340. 46 Hence there was a total of $97,822.01 in actual and
$353,818.47 in match for a total partner cost share of$451,640.48. The partners maintain the
supporting documentation such as invoices, bills, expenditure reports for expenditure in its
accounting systems. SCMEP lists a small portion of these expenditures from the partner              .
quarterly reports on the SF 269. 47 The next section outlines the process for creating the quarterly
report for each partner.


                    USC Comparison ofActual Outlays with BudgetedAmounts

At the end of each quarter, a USC CMAT staff person creates the SCMEP quarterly report by
pulling all relevant expenditures from USC's accounting system, which is called USC
Management Report (also known as Datawarehouse). Pursuant to the cost share agreement,
those expenditures are entered into the financial report form. The quarterly report is divided into
two major sections: personnel costs and operating costs. Reporting of those expenditures are
broken down into "Actual" and "Match" representing the expenditures from the payments from
SCMEP and cost contributions to non-federal share respectively.

The first section of the fonn is "Personnel Costs" which are comprised of salaries and fringe
benefits. The salary portion is compiled by using monthly reports that include a total of all
salaries paid out during the month for the MEP project. The payroll department completes the
monthly report. Staff previously entered their time into a separate program that codes the input
based on the department number, the type of staff and the unit of work. The sum of the salaries
for the three month period is added into a lump sum that includes salaries and time for students,
staff,. temporary and full time employees. Next, the fringe benefit rate is applied to the total
salaries. The personnel cost is the sum of total salaries plus fringe benefits.

The next section on the fonn is "Operating Costs" which is comprised of eight sub categories
including travel-mileage, office supplies, project supplies, other supplies, equipment, rent,
utilities, and other costs. Like personnel costs, operating costs come from the Datawarehouse
program. Each expenditure has been assigned to an object code and has been previously coded
for the MEP grant.

The object codes do not match up exactly to the subcategories listed on the SCMEP reporting


43   See Exhibit 7 USC quarterly report     .   .
44   See Exhibit 8 Greenvil\e Tech quarterly report
4S   See Exhibit 9 Clemson quarterly report
46   See Exhibit 10 SC Export quarterly report
47   See Exhibit 11 SCMEP SF 269


                                                      16




                                                      D-18
                                                                                 APPENDIXD


fonn, therefore, prior to input, the existing object codes are assimilated to the categories on the
fonn. For example, under USC's accounting system, there are several subcategories for travel,
therefore, all travel coded for the MEP project is pulled into one sum in order to enter it into the
financial report fonn. The back up documentation for the travel is maintained including the
request for reimbursement for any travel. The USC CMAT program does not make a
reimbursement unless the request is in compliance with the university's policies and procedures.
Similarly there is no object code for "project supplies." Therefore, CMAT staff haS assigned
items such as materials for creating a brochure or other marketing items under this subcategory.
"Rent" includes expenditures for renting a booth at a trade show for a client. Because space
from the university is donated to the program, this category is rarely utilized on the fonn.
The last line of the fonn "Grand Totals for Budgeted and Actual Expenses" is the sum of the
personnel costs and operating costs.

The Draft Audit Report claims that the twenty-eight percent interest rate for fringe benefits was
an arbitrary amount. The use of this rate resulted in an excess cost claimed amounting to
$16,887. This rate was not arbitrary and used because it is based on an agreed upon tenn
between SCMEP and its partners. The application of the twenty eight percent for fringe benefits
was due to a misunderstanding. SCMEP thought that it was required to apply the twenty-eight
percent rate to its partners for activities under the cost share agreement. We have obtained the
fringe benefit rates from USC and will apply the proper rate to the charges based on the type of
employee. 48 Quarterly reports will be corrected and include the proper fringe benefit rates.
However, because SCMEP had substantial eligible costs share that was in excess of its required
match, SCMEP would likely find it unnecessary to claim any fringe.

                    Greenville Tech Comparison ofActual Outlays with BudgetedAmounts

Greenville Tech uses a similar procedure as USC in completing the SCMEP report by including
expenditures that were'previously coded in their financial accounting system. However,
Greenville Tech's expenditures for the SCMEP well exceeded the necessary amounts under its
cost share agreement. The college has its own accounting system called Datatel in which a
department number is assigned for the SCMEP grant. This department number tracks
expenditures of the funds provided to Greenville Tech from SCMEP. A separate number tracks
the expenditures for the cost share and represents Greenville Tech's out of pocket expenditures.
At the end of the quarter, the expenditures are pulled for those particular account numbers and
entered into the SCMEP fonn in a similar manner as in USC.

The auditor questioned $7,319 in charges for office furniture claimed as property and equipment
by Greenville Tech. This cost was perhaps included in error merely because it was likely
reported in the inappropriate quarter. However, the classroom furniture was a budgeted cost for
the work with the SCMEP classes and only a portion ofthe cost was actually charged to the
SCMEP grant. Even if this cost is ultimately disallowed, there were more than enough costs to
substitute.




48   See Exhibit 12 USC fringe rate


                                                 17




                                               D-19
                                                                               APPENDIXD



               Clemson Comparison ofActual Outlays with BudgetedAmounts                            i




Clemson also uses a similar procedure as USC and Greenville Tech in the production of the          I'

SCMEP quarterly reports. Clemson staff first set up account numbers in the university wide
accounting system to track direct charges to the agreement as well as a cost share account. In     I
addition, Clemson staff set up individual accounts to track miscellaneous industrial projects,     i
small production, Marine Shop production, NIB projects, seminars and trainings. These are all
used for match.                                                                                    I

                                                                                                   !
Clemson staff use Budget Status Reports for Expenditures, end of month reports, from the three
relevant months for a given quarter to complete the SCMEP quarterly report. Each quarter, each
Program Delivery Staff employee is required to report activity for SCMEP on projects they have
completed during the time period. If someone is still working with a client, the work is not
reported until completed. This is also submitted on a provided forma.t form from SCMEP. A
manual process is used to separate each Program Delivery staff's salary costs and input that
infonnation into the SCMEP quarterly report fonn. All invoices and receipts related to SCMEP
expenditures that have been sent and received are tracked through an inquiry on the Clemson
financial system. Invoices for the match accounts are hand calculated using the actual invoices
prepared during the particular quarter.

Receipts recorded for the match accounts are also hand calculated, as noted on each actual
document prepared as to the receipt date available in the Clemson financial system. This date is
acquired through a daily receipt report that is available for the entire department. This
information cannot be retrieved by account. The receipts often do not match the invoices each
month because under Clemson accounting policies invoice amounts are credited as received
when invoiced, despite the collection period. This is different from the SCMEP reporting
requirements. Only the actual expenditures for the period are counted as match.


              SC Export Comparison ofActual Outlays with BudgetedAmounts

The procedure for SC Export to complete the SCMEP quarterly reports on the other hand is
different from the other partners for a few reasons. First, SC Export a small non-profit
organization and is not a large educational institution like the other partners. Second, the
creation of the reports involves the input of the South Carolina Chamber of Commerce, a
separate entity. The most significant difference however, is that SC Export has more of a
vendor/contractor relationship with SCMEP. In efforts to comply with NIST's insistence that
partners fit the subrecipient model, SCMEP and SC Export attempted to structure its agreements
and reporting based on the subrecipient model, even though the relationship betWeen SC Export
and SCMEP did not change fundamentally. The services included activities such as providing
consultation to SCMEP or companies on exportation issues, marketing research, research
projects for example, research regarding hydrogen fuel cells and working with a specific number
of small to medium sized manufacturers for a given period.

Every expenditure made by SC Export is tracked in the South Carolina Chamber of Commerce



                                               18




                                               D-20
 

                                                                                    APPENDIXD



  accounting system. At the end of the quarter, Dorette Coetssee would work closely with SCMEP
  staff to ensure that calculations input into the quarterly report complied with all relevant
  procedures. Based on employee time sheets and time spent on SCMEP activity, a percentage of
  expenditures were attributed to the SCMEP grant. She also worked with staff at South Carolina
  Chamber of Commerce to pull the financial data from their accounting system. Ms. Coetssee is
· no longer working for SC Export because she was recently hired to work for the US Export
  Assistance Center, office of US Department of Commerce International Trade Division.

 SC Export incurred foreign travel expenses without prior approval from NIST. SC Exports
 understanding of the parties' relationship, there was no need for prior approval because they were
 operating as a contractor providing a service for a fixed fee. Assuch,OMB Circular A-122 is
 not applicable. The SC Export received a fixed price to provide a service and therefore as long
 as the service was necessary for objectives of the program, is irrelevant how the vendor
 expended those funds. 49 The parties will revise the operative contracts to more accurately reflect
 their legal relationship.

         Written Procedures for Determining Allowability

  SCMEP makes its determination of allowability using its written procedures that apply
 

  applicable federal cost principles. SCMEP worked closely With its partners through the steps
 

  described above, to ensure that the costs claimed by SCMEP were reasonable, the cost share
 

  agreement and quarterly reporting form, clearly required AME, under 15 C.F.R. Part 14, to
 

  provide documentation sufficient for SCMEP to determine the allowability of costs pursuant to
 

· its oWIi written procedures and the applicable cost principles. This procedure complies with the
  authorizing statute, which prevails over the general administrative provisions in the event of a
  conflict. See United States v. Coates, 526 F. Supp. 248 (E.D.CalNov. 19, 1981), aff'd in part,
  reversed in part, 692 F.2d 629 (9 th Cir. Nov. 19, 1982). The authorizing statute state~ the
  following:

                 In meeting the 50 percent requirement, it is anticipated that a Center will
         enter into agreements with other entities such as private industry, universities, and
         State governments to accomplish programmatic objectives and access new and
         existing resources that will further the impact on the Federal investment. ...AlI
         non-federal costs, contributed by such entities and determined by a Center as
         programmatically reasonable and allocable are includable as a portion of the
         Center's contribution.

 Emphasis added; P.L. 110-69, Sec. 3003(a)(3)(C). The statute does not require that p3!1Ders be 

 subrecipients, nor does it require that partners abide by the Financial Management Standards in 

 15 CFR Part 14. To the contrary, the statute explicitly and unambiguously places the 

 responsibility of detennining reasonableness and allocability on the Centers themselves. 50 


· Like all of the other partners, USC utilizes its exiting policies and procedures to determine the
  allowability of costs for the SCMEP program. Because CMAT operates in a manner similar to


 so Id


                                                  19




                                                 D-21

                                                                                           APPENDIXD



the SCMEP Center, its financial records are maintained in a similar manner and most of its costs
are allocable to the program. There is generally no specific project to link expenditures to as
expected by the auditor. Any failure to link expenditures to a particular project does not mean
that expenditure is not allowable.

USC has several policies and procedures for the university that are applicable to the CMAT
program. Those polices applicable to the MEP program include the Cost Accounting Standards,
the Cost Sharing Policy the Contract and Grant Accounting Policy and the Contracts and Grants:
Personnel Activity Reporting System. S1                                            .


           Single Audit Reports

The auditor commented that ''two of the three NIST MEP related subawards were not subjected
to the required specific auditing techniques of the single audit process." Because the SCMEP
partners only receive state funds, they were not required to participate in the single audit process
With respect to the MEP award. As the auditor notes, under the Single Audit Act applies to the
expenditure of "federal awards."

SCOPE OF MEP PROJECT

The Draft Audit Report contends that Clemson "incurred costs outside the scope ofthe NIST
award in nearly all instances." The auditor points to the fact that Clemson is designated to cover
manufacturers in the northern portion of the state in the SCMEP operational plan. The Draft
Audit Report goes on to argue that there was no "direct benefit to South Carolina
manufacturers." Consequently, the auditor disallows all costs claimed by Clemson. At the very
least, the costs in which projects that were within scope should have been allowed. There was no
indication in the report·as to which portions of the costs were within scope and to what extent. In
any event, contrary to the assertion that the work was outside the scope, Clemson demonstrated
the relationship of its activities to the auditor and explained how those activities in fact not only
related to the project, but also successfully furthered its objectives.

According to the GAO Redbook, the scope ofa grant· stems from the grant's purpose. 52 In a
discussion regarding the scope ofa grant, the Redbook cites 58 Comp Gen at 681 which states:
                                                                                                                 I

                   The scope of a grant grows out of the grant purposes. These purposes must be
                   referred to in order to identify those aspects of a grant that make up the substantial
                                                                                                                 I

                   and material features of a particular grant which in turn fix the scope of the
                   government's obligation. 5
                                                                                                                 I

                                                                                                                 I

                                                                                                                 I

The case further advises that "in order to determine the scope of [a] grant we must look at the
authorizing legislation, the interagency agreements, as wen as the actual grant documents. 54"                   I

The case gives additional guidance by saying,                                                                    I
51. See
52
53
         Exhibit 13 USC Policies and Procedures (for more policies for USC see http://www.sc.edulpoliciesl)
     See GAO Redbook, Ch 10, page 10-107-10-1089 (explaining how to determine the scope ofa particular grant).
     ld
                                                                                                                 I

54   58 Comp Gen 676
                                                                                                                 I
 

                                                        20




                                                      D-22
 

                                                                                      APPENDIXD



                  "If the scope of the grant is considered from the standpoint of the government
                  need and purpose in making it, the precise geographic boundaries would not
                  appear to be a material aspect of the grant-<me upon which approval or
                  disapproval depended.,,55

Moreover, the implementing statute for the MEP program does not limit the geographic service
area for its award. Here, the activities reported by Clemson were within the Scope of Work
portion of the cost share contract and are also well within the scope of and ,complementary to the
objectives of the MEP program, stated in 15 C.P.R. § 290.3(b), Program Objective, and the
enabling statute, 15 U.S.C.§ 278k. As stated in the regulation, the objective of the MEP
program is "to enhance productivity and technological performance in United States
manufacturing." As noted in the Overvie~ for the MEP program, the out of state activities that
the auditor suggests be disallowed fall perfectly within the goals of the statute which include:

         "(2) participation of individuals from industry, universities, State governments, other
         Pederalagencies and NIST in cooperative technology transfer activities; (3) efforts to
         make new manufacturing technology 'and processes accessible and usable by small and
         medium-sized U.S. companies; (4) active dissemination of scientific, engineering,
         technical, and management information to industrial firms; and (5) utilization of expertise
         and capability that exists in Pederallabs other than NIST. 56

Even the Draft Audit Report quotes that, "The mission of the South Carolina Manufacturing
Extension Partnership (SCMEP) is to strengthen the global competitiveness of South Carolina
small to midsized manufacturers." In response to the auditor's questions, Dr. Christine W. Cole
explained that the projects outside of South Carolina benefited South Carolina manufacturers
because the~ could be used in learning and demonstration of technologies for South Carolina
companies. 7 Additionally, components from South Carolina manufacturers could be used in out
of state projects.

The auditor's findings with respect to scope are also in contradiction to the recommendations of
NIST itself. In the Observations and Recommendations of the 23 rd Year Review Panel which
stated:

                 "The Panel encourages SCMEP to reach out to other Centers within the National
                 MEP System as SCMEP continues to grow. The Panel feels that the other MEP
                 Centers in the region can provide additional capacity, resources and skills to assist
                 SCMEP, particular for projects that involve facilities in other states .... In addition,
                 the Panel encourages SCME~ to examine performance measurements used at
                 other Centers within the National MEP System.,,58                               ,

CAR has not only allowed SCMEP to meet its statutory requirements, but has also allows

SS ld.
S6 15 U.S.C. § 278k(b).
S7 See Exhibit 14. Letter from Christine Cole dated 10/12/07
S8 See Exhibit 15 NIST annual report 2007




                                                        21




                                                       D-23

                                                                                 APPENDIXD
 



SCMEP to follow the recommendations of the annual panel. The most notable benefits of CAR's
out of state activities to SCMEP and SME's is that the reputation of the program is enhanced and
gains a larger stage in which to demonstrate the strengths of SCMEP program. This has had an
indirect benefit by attracting huge contracts for large corporations to bring projects to South
Carolina such as Boeing, DuPont, BMW, and Honda.                                                       i
The auditor ignored all of the factual information as well as the legal authority by focusing on       i
the geographic region in which Clemson agreed to cover under the cost share agreement.
Clemson agreed to cover that region but to also meet the more global mission and objectives of
the cooperative agreement and the SCMEP program. Therefore, based on the legal authority and
its application to the factual situation at hand, despite the auditor's suggestion, all of Clemson's
costs should be allowed.

NO SPECIFIC MEP PROJECT

The auditor seems to similarly ignore the overarching legal authority and factual circumstances
when it criticized USC, Greenville Tech, and SC Export because some of their expenditures were
not assigned a specific project related to MEP. The authorizing statute anticipates that
partnerships will involve existing entities who claim costs for activities that are not separately
identified as an MEP projects. S9 The partners' missions are aligned with SCMEP and they
already serve SME's. As expressed earlier in this response, because the partners already provide
these services, the federal investment is furthered by them also collaborating and sharing
information among each other to ultimately benefit SMEs. Essentially more work is done under
without additional expenditures .of federal dollars. In fact, NIST commended SCMEP in the
Observations and Recommendations of the 23 rd Year Review Panel, stating:

                    The Panel recognizes SCMEP for its strong partnerships. The Panel notes that
                    through its partnership referral, SCMEP has been able to grow the center with
                    limited marketing expenditures. (Paragraph 5 of Observations and
                    Commendations). 60

MEP activities are tracked when services are provided to qualifying companies and partners
report those services to SCMEP who then reports that activity to NIST. Each partner has either a
precise account, object numbers and/or object codes specifically assigned to SCMEP in their
individual accounting systems. In addition, although the reporting was not done based on
individual MEP projects, USC offered to run their numbers to assign everything based on project
or client. However, the auditor did not accept this offer.

PERCENTAGE OF PARTNER MATCH

The auditor imposes federal cost share requirements on the partners by saying Clemson provided
too much match in relation to the state funds it received and SC Export did not provide enough.
As stated earlier, the relationship between SCMEP and the partners is not a subrecipient
relationship.

59   America Competes Act, P.L. 110-69, Sec. 3003,121 Stat. 587 (2007).
60   See Exhibit 15 NIST annual report 2007


                                                         22




                                                       D-24
 

                                                                                                APPENDIXD
 




 The SCMEP cost share agreements set a goal of minimwn cash expenditures and calls for
 SCMEP partners to provide a matching contribution; however, the agreement never places a limit
 on expenditures. According to the MEP statute and the applicable regulation for cost share, all of
 partner's costs could be included as cost share for SCMEP as long as the center otherwise
 detennined the cost was reasonable and allocable to the pro~am. 61 The statute imposes a
 minimum requirement on the Center, but not on its partners. 2                       .


  Furthennore, as also mentioned earlier, the amount of expenditures varies from quarter to
 quarter. The amounts listed in the agreements are merely goals and not conditions. Additionally,
 because SCMEP had more than enough eligible cost share contributions from its other partners
 to meet its federal cost share requirements, it was unnecessary to impose the disproportionately
 high cost share objectives on its partners.

 Even viewed under the subrecipient construct, the failure of a subrecipient to meet its matching
 share requirement under an agreement with the recipient is no basis for the grantor to disallow
                                                                                                                     I
.costs to the grantee as long as the grantee otherwise meets its federal matching requirements. 63                   I
 PROGRAM INCOME                                                                                                      I
                                                                                                                     !
. The auditor questioned SCMEP partner costs because they failed to report program income.                           L
  SCMEP's partners were not required to report program income because their activities were not
  supported by federal financial assistance funds. NIST MEP officials have caused considerable
  confusion over the years regarding the treatment of program income. The MEP regulation
  defined "fees for services" as "host contribution" defining it to be cost share. 64 At one time there
  was a special task group fonned by NIST with the participation of several MEP Centers to
  address the treatment of program income, but it was disbanded before the work was completed.
  Program income is defined as "gross income earned by the recipient that is directly generated by
  a supported activity or earned as a result of the award,',65 including fees for services perfonned. 66
  As the auditors noted, most program income generated under the SCMEP award results from the
  fees paid by private manufacturing firms and individuals for services, tuition charges, or for fees
  paid by conference participants or sponsors. These fees are not paid with federal dollars.

 Program Income is key to the MEP Centers in order to meet the 2/3 non-federal cost share and to
 provide "unrestricted" funds vital to maintaining operations during times of uncertain funding,
 either from the State or from NIST. SCMEP has been in the fortunate situation of having State
 funding that was "unrestricted," enabling it to use State funds as a reserve and to cover costs

61 See 15 U.S.C. § 278k (c)(D) ("All non-Federal costs, contributed by such entities and determined by a Center as
programmatically reasonable, and allocable under MEP program procedures are includable as a portion of the
Center's contribution.") See a/so 15 C.F.R. § 14.23 (similarly allowing inclusion of "all contributions including
cash and third party in-kind, shall be accepted as part of the recipient's cost sharing or matching when" such
contributions otherwise meet the seven criteria of the regulation).
62Id
63 14.2 OJ) subrecipient is accoUDtable to the recipient as to use of funds provided.
64 The program regulation defmed two types of program income as "cost share." 15 C.F.R. § 290.4(c)(2) and (3).
65 15 C.F.R. § 14.2(aa).
 66   I d.


                                                        23




                                                        D-25
 

                                                                                               APPENDIXD
 



otherwise not allowable under the MEP award. SCMEP never considered its partners to be
subrecipients or responsible for reporting the revenue they received for the services to small and
medium size manufacturers. The partners' costs were reimbursed by State funds, they did not
produce income subject to federal restrictions under the terms of the cooperative agreement and
the grant administrative regulations (15 C.F.R. §14.24). If the partners realized any surplus
revenue because the fees they charged exceeded the costs incurred, they expend it in furtherance
of the MEP mission to assist small and medium size manufacturers. This is a permissible use of
program income as clearly set forth·in a decision by the Department of Health and Human
Services Departmental Appeals Board which states that the recipient can expend program income
even on expenses that are "not otherwise permissible as charges to federal funds." Anchorage
Neighborhood Health Center, U.S., HHS DAB No. 561 (August 6,1984). If used to add
activities to the award, the program income funded activity need only further the program
purpose, and is not subject to the cost principles. Id

It is well-established in law, that program income does not automatically acquire a federal
character and is not required to be deposited in the Treasury as miscellaneous receipts. 67 Under
a cost-share grant, the federal government's interest is limited to the extent of its participation.
To the extent that federal dollars paid the costs of the activities that generated the program
income, it may direct the recipient as to how it may expend that income. That does not give the
federal government the legal right direct how SCMEP partners spend any of their earned surplus
revenue generated by State dollars. Many federal agencies that anticipate that a cost-share grant
program will generate program income, address it specifically in their program regulations. In
those regulations, federal agencies clearly acknowledge that the federal government may only
direct the recipient on the use of the program income to the extent of the federal share, i.e., one­
third of the income under an MEP cooperative agreement,68 Neither NIST nor the Department of
Commerce have issued such a regulation regarding program income produced under cost share
grants, despite the fact that MEP clearly anticipated fees for services to be charged by recipients
(as do other programs at Commerce, such as the Minority Business Development
Administration). For this reason, one must look to other federal agency regulations for
guidance. 69

During 2006, NIST was implementing changes to its operating plan guidelines and general terms
and conditions with respect to: the calculation of program income, undisbursed program income,
the impact of state and other funding on the calculation of program income, the restrictions of all
or a portion of program income, the amount that could or should be carried forward by a center,
and the process and procedures for approval. The MEP General Tenns and Conditions were not

67 B-191420 (August 24,1978), pA and 44 Compo Gen. 87,88 (1964) which established that income generated from
 

federal funds was not subject to section 3617 ofthe Revised Statutes, 31 U.S.C. § 484 (1970).
 

68 This interpretation has been adopted by the Department of Justice, Financial Guide, Office of Justice Programs,
 

U.S. Department of Justice, Chapter 4, available at
http://www.ojp.usdoj.gov/finguide06/partJ/partJchap4/partJchap4.htm (Where a program is only partly funded by
Federal funds, the Federal portion of program income must be accounted for up to the same ratio of Federal
participation as funded in the project or program.), the Department of Housing and Urban Development, 24 C.F.R. §
570.489(e)(I) (When income is generated by an activity that is only partially assisted with CDBG funds, the income.
shall be prorated to reflect the percentage ofCDBG funds used.), and the Department of the Interior, Office of
Surface Mining, Federal Assistance Manual, Office of Surface Mining, Department of the Interior, available at
http://www.osmre.gov/fam/defin.htm.
69   1d.


                                                        24




                                                        D-26
                                                                                APPENDIXD
 



actually incorporated into the 2006 cooperative agreements WItH February 2006. Once the
procedures were clearly established, SCMEP continued to believe that its partners were not truly
subrecipients expending federal financial assistance funds, and never required its partner to
report program income on its quarterly reports. NIST should not now, at this late date, require
MEP partners to report program income and the auditor should eliminate this finding.

SCMEP does account for its program income generated under the award and generally expends
any program income earned through the award period and reports it on quarterly SF 269s
submitted to NIST. SCMEP expends its federal dollars and revenues first, to be sure that it
retains the "unrestricted" state funds it needs to maintain a reserve and spend on unallowable
costs. By only retaining state funds as its "reserve," and making sure to expend its federal
dollars and program revenues first, SCMEP never has any "excess" or ''undisbursed'' program
income to report. This is done precisely for the purpose of maintaining unrestricted assets.

OTHER QUESTIONED COSTS

This section deal with the only cost that the auditor questioned that did not pertain to the SCMEP
partners, the bonus to an SCMEP employee.

Bonus

SCMEP disputes the disallowance of the $2,500 bonus for its employee, Brittney Godfrey­
Whiddon. The bonus was of $2,500 was for the performance period ofJanuary 2006-June2006
while Ms. Godfrey-Whiddon was an SCMEP employee. Ms. Godfrey Whiddon was initially
employed with the Women's Business Center then worked with the SCMEP Center and
subsequently returned to work for the Women's Business Center.

CONCLUSION
SCMEP has a strong MEP program with severallong-tiine NIST approved partners and
continues to provide important services to its clients throughout South Carolina. SCMEP has
consistently followed the direction ofNIST and abided by the applicable statutes and regulations
in carrying out its MEP program.

The methodology used by the auditor in basic matters such as the selection of the audit period
and the categories in which to disallow costs are difficult to understand a& well as respond to.
SCMEP and its partners opened their financial books up to the auditors and repeatedly asked for
clarification on what information the auditorwanted and frequently offered evidence to show
that they could in fact provide source documentation of the expenditures listed in the quarterly
reports and demonstrate that the expenditures are reasonable, allocable and allowable to the MEP
program. Much of the documentation has already been made available to the auditor, but
evidently has been completely rejected. We are working with the partners to again provide
supporting documentation.

The auditors' insistence that there are not valid partner costs on the basis of the financial
management standards is plainly inaccurate. SCMEP and its partners have demonstrated that
they clearly meet the relevant financial systems requirements for managing federal dollars, even



                                                25
 





                                               D-27
 

                                                                                     APPENOIXO
 



though they receive no federal dollars from SCMEP. Although the auditor applied the
inappropriate standard of 15 C.F.R. § 14.21 as it applies to subrecipients, SCMEP demonstrated
that its partners meet those criteria. All of the partners are subject to strict regular audits because
they are either educational institutions receiving other federal funds subject to OMB Circular A­
133 audits in the case of USC, Greenville Tech, and Clemson, or subject to the scrutiny of the
state auditors like SC Export.

Based on the true nature of the relationship between the parties, the auditor should have
evaluated the partners based on the statutory standards of the MEP statute as set forth above, and
instead applied the criteria of 15 C.F.R. § 14.23. The auditor fails to even mention in the analysis
that the state of South Carolina was the sole source of funds for all partners in which it
examined. Even so, the SCMEP partners can demonstrate that they meet the requirements as if
they were subrecipients.

Similarly the auditor's claim that the majority of the work conducted by the Clemson Apparel
Research is out of scope is not only inaccurate but completely contrary to the NIST MEP statute,
but disregards NIST's recommendations to SCMEP in the most recent annual report. The
auditor's recommendations of disallowance of costs seem to be based in a fundamental
misinterpretation and misunderstanding of how the MEP program should operate as a whole both
nationally as well as for SCMEP on an individual level.

Correspondingly, the comments regarding the failure to tie expenditures to specific MEP projects
and a failure to report of partner program income seem to stem from a misinterpretation of the
authorizing statute and overarching regulations.




                                                  26
 





                                                  0-28
 

                                                                     APPENDIXD
 





EXIDBIT LIST
 


Exhibit I    2006 ~IST Annual Report

Exhibit 2    Cost Share Contracts for Audit period Greenville Tech

Exhibit 3    Cost Share Contracts for Audit period Clemson

Exhibit 4    Cost Share Contracts for Audit period SC Export

ExhibitS     Cost Share Contracts for Audit Period USC

Exhibit 6    SC:tv1EP Instructions for Quarterly Report

Exhibit 7    Quarterly Report for 1/07-3/07 USC

Exhibit 8    Quarterly Report for 1/07-3/07 Greenville Tech

Exhibit 9    Quarterly Report for 1/07-3/07 Clemson

Exhibit 10   Quarterly Report for 1/07-3/07 SC Export

Exhibit 11   SF 269

Exhibit 12   USC Fringe Rates

Exhibit 13   Policies and Procedures USC

Exhibit 14   Letter from Christine Cole

Exhibit 15   2007 NIST Annual Report

Exhibit 16   South Carolina Statute Authorizing Payment to USC




                                             27




                                            D-29
